<html>
<title> - THE FISCAL YEAR 2014 U.S. DEPARTMENT OF ENERGY BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






         THE FISCAL YEAR 2014 U.S. DEPARTMENT OF ENERGY BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2013

                               __________

                           Serial No. 113-53





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-443                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001

















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               PAUL TONKO, New York
JOSEPH R. PITTS, Pennsylvania        EDWARD J. MARKEY, Massachusetts
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
ROBERT E. LATTA, Ohio                LOIS CAPPS, California
BILL CASSIDY, Louisiana              MICHAEL F. DOYLE, Pennsylvania
PETE OLSON, Texas                    JOHN BARROW, Georgia
DAVID B. McKINLEY, West Virginia     DORIS O. MATSUI, California
CORY GARDNER, Colorado               DONNA M. CHRISTENSEN, Virgin 
MIKE POMPEO, Kansas                      Islands
ADAM KINZINGER, Illinois             KATHY CASTOR, Florida
H. MORGAN GRIFFITH, Virginia         JOHN D. DINGELL, Michigan
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     5
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
    Prepared statement...........................................     9
Hon. Eliot L. Engel, a Representative in Congress from the State 
  of New York, prepared statement................................    62

                               Witnesses

Ernest J. Moniz, Secretary, U.S. Department of Energy............    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................    73

                           Submitted Material

Report entitled, ``Proposed FY 14 Administration Cuts to Dept. of 
  Energy Coal and Fossil Energy Research and Development 
  Program,'' the University of Illinois, submitted by Mr. Shimkus    63
Letter of March 26, 2013, from the Committee to the U.S. 
  Department of Energy, submitted by Mr. Burgess.................    65
    D.O.E. response..............................................    68
Letter of April 25, 2013, from the Center for Strategic & 
  International Studies to President Barack Obama, submitted by 
  Mr. Kinzinger..................................................    70
Chart entitled, ``Fossil Energy R&D,'' submitted by Mr. McKinley.    72

 
         THE FISCAL YEAR 2014 U.S. DEPARTMENT OF ENERGY BUDGET

                              ----------                              


                        THURSDAY, JUNE 13, 2013

                  House of Representatives,
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:09 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Ed 
Whitfield (chairman of the subcommittee) presiding.
    Members present: Representatives Whitfield, Scalise, Hall, 
Shimkus, Terry, Burgess, Latta, Olson, McKinley, Gardner, 
Kinzinger, Griffith, Barton, Upton (ex officio), Rush, 
McNerney, Tonko, Engel, Green, Capps, Doyle, Barrow, Matsui, 
Christensen, Castor, and Waxman (ex officio).
    Also present: Representative Johnson.
    Staff present: Nick Abraham, Legislative Clerk; Gary 
Andres, Staff Director; Charlotte Baker, Press Secretary; Mike 
Bloomquist, General Counsel; Sean Bonyun, Communications 
Director; Matt Bravo, Professional Staff Member; Alison Busbee, 
Policy Coordinator, Energy & Power; Annie Caputo, Professional 
Staff Member; Patrick Currier, Counsel, Energy & Power; Andy 
Duberstein, Deputy Press Secretary; Vincent Esposito, Fellow, 
Nuclear Programs; Tom Hassenboehler, Chief Counsel, Energy & 
Power; Ben Lieberman, Counsel, Energy & Power; Nick Magallanes, 
Policy Coordinator, CMT; David McCarthy, Chief Counsel, 
Environment/Economy; Brandon Mooney, Professional Staff Member; 
Mary Neumayr, Senior Energy Counsel; Andrew Powaleny, Deputy 
Press Secretary; Peter Spencer, Professional Staff Member, 
Oversight; Tom Wilbur, Digital Media Advisor; Jeff Baran, 
Democratic Senior Counsel; Phil Barnett, Democratic Staff 
Director; Greg Dotson, Democratic Staff Director, Energy and 
Environment; Kristina Friedman, Democratic EPA Detailee; and 
Caitlin Haberman, Democratic Policy Analyst.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. I would like to call the hearing to order 
this morning. And today's topic and hearing will be on the 
Department of Energy's fiscal year 2014 budget. And, of course, 
this is the first opportunity that we have had to have our new 
Energy Secretary Ernest Moniz with us.
    And, Mr. Secretary, we are delighted you are here. We know 
that you have a lot of experience at the Department of Energy 
having served there in the Clinton Administration. And I think 
all of us were quite impressed with the way you sailed through 
confirmation. I think the vote was 97 to 0. And that is quite a 
tribute to you, I would say. So congratulations on that 
confirmation.
    And I will recognize myself now for a 5-minute opening 
statement.
    Under the Obama Administration, the Department of Energy in 
my view has often taken a backseat to the Environmental 
Protection Agency and was all too willing to acquiesce to EPA's 
agenda rather than affirmatively assert its own pro-energy 
agenda. Particularly, DOE allowed itself to become a part of 
the Administration's--for lack of a better word--attack on 
fossil fuels when it should have been defending them as a core 
component of our energy future and a critical contributor to 
job creation, global competitiveness, and affordable energy 
prices.
    When I think about an anti-fossil fuel movement, 
frequently, I think about Europe and what has happened. Europe 
has placed so much emphasis on renewables and wind energy and 
solar, and when the natural gas prices started escalating in 
Europe, all of a sudden in Europe they are burning more and 
more coal now. And on the books they have plans to build 69 new 
coal-powered plants, 60 gigawatts of new power. And so I think 
that it is important that we think about this instead of this 
Administration has moved--the budget reflects most of the money 
is being spent on renewable rather than the baseload energy 
needs.
    I will never forget then-Secretary of Energy Chu made the 
statement that coal is his worst nightmare. And I don't think 
that we need a Department of Energy that sees this Nation's 
growing abundance of natural gas and oil as a problem to be 
solved rather than an opportunity to be embraced.
    The Department of Energy in my view should not treat 
conventional energy and renewable energy as an either/or 
proposition where the Federal Government actively discourages 
conventional energy in order to create an artificial market for 
renewable energy. The President says himself that he is for 
``all of the above'' and yet, frequently, in his 
Administration, that absolutely is not the case.
    We need a Department of Energy in my view open to all 
domestic energy sources that are economically competitive, be 
they conventional or renewable. ``All of the above,'' as I 
said, has supposedly been the President's motto, but his 
policies have suggested otherwise.
    In fact, yesterday, I introduced legislation along with a 
Democratic Member that would repeal a provision in the Energy 
Independence and Security Act of 2007 that would require that 
the Federal Government not use any fossil fuel for heating new 
or modified federal buildings by the year 2030. So our bill is 
in keeping with the President's stated goal of using all of the 
above. And yet, that 2007 Energy Independence and Security Act 
would phase out the use of fossil fuel in its entirety for any 
federal new building or modified building by the year 2030.
    I look forward to working with Secretary Moniz, and I 
believe that the proposed fiscal year 2014 DOE budget we will 
review today, as I said, still reflects the mistakes of the 
recent past and is not a forward-looking proposal.
    For example, we see in this budget an outsized--and I know 
that the Secretary certainly was not there at the time--but we 
see an outsized request for the Department of Energy's Office 
of Energy Efficiency and Renewable Energy, which we all 
support, a nearly $1 billion increase. And when you look at 
these numbers, you have got batteries in electric vehicles 
receiving more money than any other entity, solar energy next, 
building technologies next, biomass next, and the conventional 
fuels are way down the list. And I don't think there is 
anything that reflects an Administration's overall goals better 
than its budget request.
    So I think the shale gas and oil revolution in America 
holds tremendous potential for energy affordability and 
security, for job creation, for export opportunities, and for 
strengthening America's standing in the world, but it also 
poses implementation and innovation challenges for which DOE, 
in my view, can play an important role. DOE should be out in 
front of this revolution taking steps to facilitate its 
development and not creating obstacles to it.
    So I look forward to working with you, Mr. Secretary. We 
certainly look forward to your testimony and your answers to 
our questions today.
    [The prepared statement of Mr. Whitfield follows:]

                Prepared statement of Hon. Ed Whitfield

    This morning's hearing will focus on the proposed Fiscal 
Year 2014 budget for the Department of Energy. But it is also 
this subcommittee's introduction to the nation's new Secretary 
of Energy, Dr. Ernest Moniz. Congratulations Dr. Moniz on your 
overwhelming victory in the Senate. Hopefully some of the 
legislation we will be considering this year will get that kind 
of vote. I am genuinely looking forward to working with you to 
help fashion an energy policy that benefits the American 
people.
    It is no secret that I have had my share of disagreements 
with the Obama administration and DOE over the past few years. 
Under this administration, DOE has often taken a back seat to 
the Environmental Protection Agency, and was all-too-willing to 
acquiesce to EPA's anti-energy agenda rather than affirmatively 
assert its own pro-energy agenda. In particular, DOE allowed 
itself to become a part of the administration's attack on 
fossil fuels when it should have been defending them as a core 
component of our energy future and a critical contributor to 
job creation, global competitiveness, and affordable energy 
prices.
    In my view, the last thing we need is a Secretary of Energy 
who says things like ``coal is my worst nightmare.'' Nor do we 
need a secretary who sees this nation's growing abundance of 
natural gas and oil as a problem to be solved rather than an 
opportunity to be embraced. And we certainly don't need a 
secretary who treats conventional energy and renewable energy 
as an either/or proposition where the federal government 
actively discourages conventional energy in order to create an 
artificial market for renewable energy. We need a secretary 
open to all domestic energy sources that are economically 
competitive, be they conventional or renewable. All of the 
above has supposedly been the president's motto, but his 
policies have suggested otherwise.
    Yesterday I introduced legislation to repeal a provision in 
the Energy Independence and Security Act of 2007 requiring a 
100 percent reduction of domestic energy sources such as coal 
and natural gas to be used in new and modified federal 
buildings by 2030. This bill would allow the government more 
access to diverse energy sources and more cost effective 
measures for building structures. It is a simple and sensible 
measure that reaffirms the administration's so called ``all of 
the above'' energy policy.
    Fortunately, I see a positive future ahead in working with 
Secretary Moniz, and not a moment too soon. But I also believe 
that the proposed FY 2014 DOE budget that we will review today 
still reflects the mistakes of the recent past and is not a 
forward-looking proposal.
    For example, we see in this budget an outsized request for 
the Office of Energy Efficiency and Renewable Energy, a nearly 
$1 billion increase. The Obama DOE has wasted too much money on 
green energy pet projects that have failed, and we owe it to 
the taxpayers not to repeat those mistakes. In sharp contrast, 
conventional energy sources receive funding far below their 
actual contribution to the energy mix. It makes no sense to me 
that DOE's applied energy budget devotes more to renewables 
than all other energy sources combined.
    And while the budget continues to throw money at things 
like electric car batteries and wind energy, it provides little 
for emerging issues like electric reliability and 
cybersecurity. It's time to get serious about the energy 
challenges we face, and this misallocation of resources needs 
to be corrected.
    For example, the shale gas and oil revolution holds 
tremendous potential for energy affordability and security, for 
job creation, for export opportunities, and for strengthening 
America's standing in the world. But it also poses 
implementation and innovation challenges for which DOE can play 
a role. DOE should be out in front of this revolution taking 
steps to facilitate it, but the proposed budget does not 
reflect this need.
    Overall, while we do not have an energy budget that 
reflects energy reality, we look forward to working with the 
new Energy Secretary who understands current energy realities 
and management priorities.

                                #  #  #

    Mr. Whitfield. And, with that, at this time I like to 
recognize the distinguished gentleman from Chicago, Mr. Rush, 
for a 5-minute opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman.
    I want to thank you, Secretary Moniz, for being here today 
to discuss DOE's fiscal year 2014 budget, as well as the 
Agency's overall energy agenda.
    Mr. Secretary, I believe you are heading one of the most 
important agencies in the Nation, as the field of energy will 
hold the keys to unlocking America's creativity and innovative 
spirit while also taking our economy to another level and 
providing an abundance of rewarding jobs and rewarding careers.
    In fact, as I have stated many times before this 
subcommittee, the country that leads the world in advanced 
energy technology, energy production, and clean and renewable 
energy breakthroughs will also lead the global race for 
economic superiority, and it is imperative that our Nation 
remains in the forefront in each of these areas.
    I believe in an all-of-the-above agenda that encapsulates 
my five core principles: 1) safe and reliable and affordable 
energy for all Americans; 2) focus on STEM education and 
training; 3) jobs and economic opportunities for all segments 
of the American population; and 4) policies to address climate 
change; lastly, North American energy independence over the 
next few decades.
    With the emergence of the shale and natural gas finds, as 
well as the Obama Administration's commitment to investing in 
new advancements in clean and renewable energy technology, I 
believe that it is possible to find the right balance between 
protecting the Nation's earth, land, and water supply through 
sensible environmental regulations while at the same time 
ensuring that all Americans have the chance to share in the 
employment, the business, and the economic opportunities that 
the energy industry will provide.
    Since my ascension as ranking member on the Energy and 
Power Subcommittee in 2011, I have held a series of discussions 
with top energy leaders in the oil, gas, and renewable energy 
and pipeline industry, and we finally began to make some 
headway in our efforts to ensure that minorities, that women, 
and that historically underrepresented groups are given a 
chance to fully participate in the lucrative and vastly 
expanding energy sector.
    Just 2 years ago when asking energy leaders about the 
levels of participation of these underrepresented groups, the 
most common response that I would receive undoubtedly would be 
sorry, Mr. Rush, we don't have that information. We will get 
back to you. Today, I am holding serious discussions with top 
industry leaders on what they can do proactively to ensure that 
minorities and other groups are aggressively being recruited, 
aggressively being trained, and aggressively given the 
opportunities to participate in the energy field. Mr. 
Secretary, over the past year, my office has worked extensively 
with your agency, including your Office of Economic Impact and 
Diversity, and together, we are making great strides in our 
combined efforts to increase minority participation in all 
sectors of the energy field from increasing STEM education and 
training opportunities to assessing employment and business 
opportunities.
    Mr. Secretary, I look forward to working with you. I look 
forward to working with your department in close collaboration 
to make sure that all Americans are afforded the opportunity to 
benefit wholly in the energy area.
    Mr. Secretary, I am delighted to have you before this 
subcommittee. I believe that your department will play a vital 
role in pushing America towards greater innovation, greater 
prosperity, and greater energy independence.
    Thank you, and I yield back.
    Mr. Whitfield. Thank you, Mr. Rush.
    At this time I would like to recognize the gentleman from 
Michigan, the chairman of the full committee, Mr. Upton, for 5 
minutes.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Well, thank you, Mr. Chairman. And today, we do 
welcome the new Secretary, Secretary Moniz, to the Committee to 
receive his testimony on the Department of Energy's fiscal year 
2014 budget.
    You know, it has been over 30 years since Congress enacted 
the Department of Energy Organization Act of 1977. That was a 
different time, a time of dwindling oil and gas supplies, 
rising energy prices--we remember those gas lines--and 
overreliance on energy imports from unfriendly nations. In 
short, it was a time of energy scarcity and uncertainty.
    Fast-forward 3 decades and our energy landscape is 
dramatically different. We have entered a new era of energy 
abundance, providing a level of energy security and certainty 
that was simply unimaginable just a few years ago.
    American ingenuity and innovative technologies have powered 
an incredible energy transition, turning the trends in domestic 
oil and natural gas production upside down. And according to 
the International Energy Agency, the U.S. is now the world's 
leading producer of natural gas, and we have a chance--and I 
think we will--surpass Saudi Arabia as the world's largest oil 
producer by 2020.
    And while we should all support a diverse and balanced 
energy strategy, including renewables and energy efficiency, 
unfortunately, the President's fiscal year 2014 budget for the 
Department of Energy ignores a number of new energy plans in 
the landscape. The President's energy budget doubles-down on 
some failed policies of the last 4 years, continuing to risk 
taxpayer dollars on ``green energy'' programs that have proven 
costly, ineffective, and failed to deliver on the jobs that 
were promised.
    Notably, the President calls for $2.8 billion for the DOE's 
Office of Energy Efficiency and Renewable Energy, a 56 percent 
increase over prior years. The amount is nearly double the 
budgets of the Offices of Nuclear Energy, Fossil Energy, and 
Electricity combined. Such a disparity in funding levels 
directly conflicts with the President's stated commitment to an 
``all-of-the-above'' energy strategy.
    The President's energy budget isn't just about dollars and 
cents; it is about priorities for the country, and the 
priorities set forth in his budget are a little bit out of 
touch with today's energy reality and present a stark contrast 
from the energy priorities being pursued by this committee.
    Our vision for the Nation's energy future is a true, open, 
``all-of-the-above'' strategy that would promote greater 
production and use of our new energy abundance, facilitate 
private sector innovation to develop advanced energy 
technologies and manufacturing, and ensure that U.S. consumers 
indeed have a long-term supply of reliable and affordable 
energy. It should also include a global perspective on how 
North America's abundant resources can be used to launch 
strategic international diplomacy and geopolitical stability 
around the world.
    To achieve those objectives, I believe that it is time to 
repurpose the Department of Energy to reflect the opportunities 
of today and meet the challenges of tomorrow, and I am very 
happy to see the Secretary's testimony reflect these new ideas 
in both organizational changes, as well as the overall mission.
    Our transforming energy landscape requires a DOE for the 
21st century. We need an agency that is ready to shed its 
culture of scarcity and instead embrace a mindset of abundance 
and opportunity. We need a department that will take full 
advantage of our newly discovered energy resources and 
capitalize on private sector expertise to modernize our energy 
systems, and that includes continued oversight regarding U.S. 
export policies that impede U.S. participation in international 
energy projects and commerce, not true just for LNG and coal 
but for nuclear suppliers, equipment, and renewables as well.
    Such a transition, if done properly, will spur dramatic 
economic growth, create thousands of good American jobs, make 
us significantly more energy secure, and in fact set the U.S. 
down a path of becoming a global energy superpower.
    So, Mr. Secretary, congratulations on your appointment. We 
certainly look forward to working with you over the next couple 
of years to achieve our common objective.
    And I would yield the balance of my time to nobody. I yield 
back.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today we welcome Secretary Moniz to the committee to 
receive his testimony on the Department of Energy's FY 2014 
budget.
    It has been over 30 years since Congress enacted the 
Department of Energy Organization Act of 1977. That was a 
different time--a time of dwindling oil and gas supplies, 
rising energy prices, and overreliance on energy imports from 
unfriendly nations. In short, it was a time of energy scarcity 
and uncertainty. Fastforward three decades and our energy 
landscape is dramatically different. We have entered a new era 
of energy abundance, providing a level of energy security and 
certainty that was simply unimaginable just a few years ago.
    American ingenuity and innovative technologies have powered 
an incredible energy transition, turning the trends in domestic 
oil and natural gas production upside down. According to the 
International Energy Agency, the U.S. is now the world's 
leading producer of natural gas, and has a chance to surpass 
Saudi Arabia as the world's largest oil producer by 2020.
    While we should all support a diverse and balanced energy 
strategy, including renewables and energy efficiency, 
unfortunately, the president's FY 2014 budget for the 
Department of Energy ignores our new energy landscape. The 
president's energy budget doubles-down on the failed policies 
of the last four years, continuing to risk taxpayer dollars on 
``green energy'' programs that have proven costly, ineffective, 
and failed to deliver the jobs as promised. Notably, the 
president calls for $2.8 billion for DOE's Office of Energy 
Efficiency and Renewable Energy--a 56 percent increase over 
prior years. This amount is nearly double the budgets of the 
Offices of Nuclear Energy, Fossil Energy, and Electricity 
combined. Such a disparity in funding levels directly conflicts 
with the president's stated commitment to an ``all-of-the-
above'' energy strategy.
    The president's energy budget isn't just about dollars and 
cents; it's about priorities for the country. And the 
priorities set forth in his budget are out of touch with 
today's energy reality and present a stark contrast from the 
energy priorities being pursued by this committee. Our vision 
for the nation's energy future is a true, open ``all-of-the-
above'' strategy that would promote greater production and use 
of our new energy abundance, facilitate private sector 
innovation to develop advanced energy technologies and 
manufacturing, and ensure U.S. consumers have a long-term 
supply of reliable and affordable energy. It should also 
include a global perspective on how North America's abundant 
resources can be used to launch strategic international 
diplomacy and geopolitical stability around the world.
    To achieve these objectives, I believe it is time to 
repurpose the Department of Energy to reflect the opportunities 
of today and meet the challenges of tomorrow, and I am happy to 
see the secretary's testimony reflect new ideas in both 
organizational changes and overall DOE mission.
    Our transforming energy landscape requires a Department of 
Energy for the 21st Century. We need an agency that is ready to 
shed its culture of scarcity and instead embrace a mindset of 
abundance and opportunity. We need a Department of Energy that 
will take full advantage of our newly discovered energy 
resources and capitalize on private sector expertise to 
modernize our energy systems. This includes continued oversight 
regarding U.S. export policies that impede U.S. participation 
in international energy projects and commerce. This is true not 
just for LNG and coal, but for nuclear suppliers, equipment, 
and renewables as well. Such a transition, if done properly, 
will spur dramatic economic growth, create thousands of good 
American jobs, make us significantly more energy secure, and 
set the United States down a path of becoming a global energy 
superpower.
    Secretary Moniz, once again, congratulations on your 
appointment and, on behalf of the entire Committee on Energy 
and Commerce, we look forward to working with you over the next 
several years to achieve our common objectives.

                                #  #  #

    Mr. Whitfield. Thank you, Mr. Chairman.
    At this time, I recognize the gentleman from California, 
Mr. Waxman, the ranking member of the full committee, for a 5-
minute opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. Mr. Secretary, I want 
to thank you for being here today. The Department of Energy 
will benefit from your expertise and leadership and we look 
forward to working with you as the Nation continues its 
transition to a clean energy economy.
    The Department has a host of challenging responsibilities--
from cleaning up Cold War-era nuclear sites and maintaining our 
nuclear weapons stockpile, to managing 17 national labs and 
operating the Strategic Petroleum Reserve. Running the 
Department of Energy is a big job and you have the experience 
to do it. But I want to tell you how I view your role. I look 
at your responsibilities through the lens of climate change. 
Climate change is the biggest energy challenge we face. There 
is no debate about the science. Climate change is happening 
now, it is caused by humans, and the impacts are real.
    The paramount responsibility of the Secretary of Energy is 
advancing the Nation's response to this existential threat.
    For decades, experts have talked about the potential future 
impacts from climate change. They have warned that in the 
future we will face extreme heat waves, floods, droughts, 
wildfires, ocean acidification, and dramatic sea level rise.
    These are no longer future threats; they are happening 
today. Climate change is spawning extreme weather across the 
country from the Texas droughts to the Colorado wildfires to 
Superstorm Sandy.
    And as the impacts mount, the window for effective action 
to address climate change is closing. And just this week, the 
International Energy Agency warned that, unless the world acts 
to reduce carbon pollution before 2020, global temperatures 
could rise by more than 9 degrees Fahrenheit, which would ``be 
a disaster for all countries.'' IEA found that taking key 
actions now to reduce emissions could be done at no net 
economic cost, while delay would impose trillions of dollars in 
costs on society.
    Mr. Secretary, your job would be a lot easier with support 
from Congress, but don't count on it. This committee, and the 
Republican-controlled House, has become one of the last 
remaining refuges of the flat-Earth society. We have the 
jurisdiction to do so much to protect future generations, yet 
we won't even hold a hearing to learn from the scientists about 
their concerns about climate change.
    So you will have to act without us. President Obama got it 
exactly right in his State of the Union address when he said 
that if Congress did not act, he would.
    Some of the most important authorities are those in the 
Department of Energy. You need to act aggressively to 
strengthen energy efficiency standards for appliances and 
equipment. That will save consumers money while reducing energy 
use and carbon pollution.
    You should implement the President's proposal for a ``Race 
to the Top'' on energy efficiency and grid modernization to 
encourage States to voluntarily adopt forward-leaning policies.
    And you can invest in research and development and provide 
other support for promising clean energy and energy storage 
technologies.
    Mr. Secretary, you also can play an important role in 
educating Congress and the public about the threat of climate 
change and the urgent need for action.
    We are at a critical crossroads. We face great peril if we 
ignore the science and cling to the fuels of the past. Or we 
can listen to the scientists, invest in the clean energy 
technologies of the future, and lead the world in energy 
innovations.
    Mr. Secretary, I am confident you will help us choose the 
right path and I look forward to your testimony and to working 
with you on all the issues that you confront where we can be of 
help. I yield back my time.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    Mr. Secretary, thank you for being here today. The 
Department of Energy will benefit from your expertise and 
leadership, and we look forward to working with you as the 
nation continues its transition to a clean energy economy.
    The Department has a host of challenging responsibilities--
from cleaning up Cold War era nuclear sites and maintaining our 
nuclear weapons stockpile to managing 17 national labs and 
operating the strategic petroleum reserve. Running the 
Department of Energy is a big job, and you have the experience 
to do it.
    But I want to tell you how I view your role. I look at your 
responsibilities through the lens of climate change. Climate 
change is the biggest energy challenge we face. There is no 
debate about the science. Climate change is happening now, it 
is caused by humans, and the impacts are real.
    The paramount responsibility of the Secretary of Energy is 
advancing the nation's response to this existential threat.
    For decades, experts have talked about the potential future 
impacts from climate change. They've warned that in the future 
we'll face extreme heat waves, floods, droughts, wildfires, 
ocean acidification, and dramatic sea level rise.
    These are no longer future threats; they are happening 
today. Climate change is spawning extreme weather across the 
country, from the Texas droughts to the Colorado wildfires, to 
Superstorm Sandy.
    And as the impacts mount, the window for effective action 
to address climate change is closing. Just this week, the 
International Energy Agency warned that unless the world acts 
to reduce carbon pollution before 2020, global temperatures 
could rise by more than 9 degrees Fahrenheit, which would ``be 
a disaster for all countries.'' IEA found that taking key 
actions now to reduce emissions could be done at no net 
economic cost, while delay would impose trillions of dollars in 
costs on society.
    Mr. Secretary, your job would be a lot easier with support 
from Congress, but don't count on it. This Committee--and the 
Republican-controlled House--has become one of the last 
remaining refuges of the flat earth society. We have the 
jurisdiction to do so much to protect future generations, yet 
we won't even hold hearings to hear from the scientists.
    So you will have to act without us. President Obama got it 
exactly right in his State of the Union address when he said 
that if Congress did not act, he would.
    Some of the most important authorities are those in the 
Department of Energy. You need to act aggressively to 
strengthen energy efficiency standards for appliances and 
equipment. That will save consumers money while reducing energy 
use and carbon pollution.
    You should implement the President's proposal for a Race to 
the Top on energy efficiency and grid modernization to 
encourage states to voluntarily adopt forward-leaning policies.
    And you can invest in research and development and provide 
other support for promising clean energy and energy storage 
technologies.
    Mr. Secretary, you also can play an important role in 
educating Congress and the public about the threat of climate 
change and the urgent need for action.
    We are at a critical crossroads. We face great peril if we 
ignore the science and cling to the fuels of the past. Or we 
can listen to the scientists, invest in the clean energy 
technologies of the future, and lead the world in energy 
innovation.
    Mr. Secretary, I am confident you will help us choose the 
right path and look forward to your testimony.

    Mr. Whitfield. Thank you, Mr. Waxman.
    That concludes the opening statements, so, Secretary Moniz, 
we will recognize you for 5 minutes for your opening statement 
and look forward to your testimony. And be sure and put the 
microphone on. Thank you.

 STATEMENT OF HON. ERNEST J. MONIZ, SECRETARY, U.S. DEPARTMENT 
                           OF ENERGY

    Secretary Moniz. Great. So, Chairman Upton and Whitfield, 
Ranking Members Waxman and Rush, members of the committee, I 
thank you for this chance to appear before you today to lay out 
some of my priorities and vision for the next few years of the 
Department of Energy. It is my first opportunity to appear in 
the House as Secretary of Energy, and I look forward and hope 
to use these brief remarks to at least partially introduce 
myself to the committee as a basis for our work going forward.
    I have been working on energy science and security issues 
for most of my professional career, and I think it is known I 
served as DOE Under Secretary during the Clinton Administration 
after serving as associate director in the Office of Science 
and Technology Policy.
    Most of my professional career has been at MIT where I have 
been on the faculty since 1973, including serving as head of 
the Department of Physics and founding director of the MIT 
Energy Initiative in 2006.
    So today, I will lay out some of my vision for how the 
Department can be best positioned to address the pressing 
challenges before us and touch on some of the initiatives in 
the President's fiscal year 2014 budget request for the 
Department of Energy. And I will organize some brief remarks 
around the DOE mission areas, starting with energy technology 
and policy.
    Since the President took office, it has been already said, 
in fact, by Chairman Upton, the global energy landscape has 
undergone a profound change. In the United States, oil and gas 
production has increased each year, while oil imports have 
fallen to a 20-year low. At the same time, renewable 
electricity generation has doubled and carbon emissions have 
fallen to the lowest level in United States in nearly 2 
decades. But even with this increase in domestic oil and gas 
production, high gasoline prices impact American families and 
businesses every day and remind us that we are still too 
reliant on oil, and the risks of global climate change, as Mr. 
Waxman said, threaten the health, security, and prosperity of 
future generations.
    The President's fiscal year 2014 budget request will help 
us double American energy productivity by 2030, save consumers 
and businesses money by saving energy, and support 
groundbreaking research innovation to leverage every domestic 
source of energy from hydrocarbons to nuclear to solar and 
wind, and other renewables as well like hydro and geothermal.
    The President's budget increases investments in DOE's 
applied energy programs. Among these are the Energy Innovation 
Hubs which bring together top scientists and engineers pursuing 
game-changing energy goals and also the Advanced Research 
Projects Agency for Energy, ARPA-E, supporting high-impact, 
early-stage technologies on the way to the marketplace. And I 
very strongly support both of those programs.
    I also served on the President's Council of Advisors on 
Science and Technology, and 2 \1/2\ years ago, that group 
recommended a new approach to try and integrate various threads 
of energy policy, environment, security, economy specifically 
by launching an Administration-wide process termed the 
Quadrennial Energy Review, and I plan to work on that across 
the Administration but clearly also with input from the 
Congress, from the industry, from NGOs and others. This will 
build on the Quadrennial Technology Review carried out in the 
Department in 2011. And to do this work, I feel it is very 
important that we beef up our analytical capabilities as the 
underpinnings of a fruitful discussion with all of the 
stakeholders.
    In science, DOE science programs really are a key part of 
the backbone of basic research in the physical sciences in the 
United States. Earlier this month, I took my first trip as 
Secretary. I went to Oak Ridge, Tennessee. Among other things, 
I saw Titan, the world's fastest supercomputer. By pursuing the 
research that is necessary to enable and build the next 
generation of supercomputers, we can help ensure continued U.S. 
leadership in this area. But we certainly cannot be laid back 
about it. International competition, especially from China, is 
closing in quite rapidly.
    While I was at Oak Ridge, I also visited the first hub 
called Castle applying these large-scale computational tools to 
nuclear power reactors. It is producing product already, a 
virtual environment for reactors.
    The President's budget also continues support for the 
Energy Frontier Research Centers, which have been, in my view, 
a great success at many universities and laboratories across 
the country.
    On nuclear security and environmental radiation I will be 
brief, although these are clearly pretty important missions for 
the Department. The President's budget proposes, I think, a 
strong basis for transitioning to a smaller but always safe, 
secure, and reliable nuclear stockpile. It also strengthens the 
science, technology, and engineering base to maintain the 
safety and reliability over the long-term.
    Environmental remediation at the many sites involved in 
decades of nuclear weapons production during the Cold War 
remains a major mission for the Department. This is a legal and 
moral imperative, and the President's budget proposal provides 
resources to clean up this legacy and continue the world's 
largest environmental remediation effort in the Department. 
Next week, I will visit the Hanford site where we have some of 
our most difficult challenges in trying to reach eventual 
closure of all of these sites.
    Finally, improving the management and performance of the 
Department really is one of my top priorities as Secretary. I 
believe we need to do this to enable our pursuit of mission 
effectively. And I will just say I have identified now 
particularly four areas where I would like to focus attention 
on improved management performance. One is better integration 
of our science and energy functions; second, elevating the 
focus through organizational change unimagined in performance 
as an enterprise-wide requirement; third, security. We need 
clear alliance of authority and responsibility and we will 
pursue that organizationally. And finally, I have already 
mentioned beefing up the analytical capacity in the Department 
and our laboratories as part of our analyzing policy.
    So in summary, the Department of Energy, I think, does have 
very significant responsibilities that bear on America's 
economic, energy, environmental, and nuclear security future. I 
have appreciated the opportunity to collaborate with members of 
this committee and with other Members of Congress both in my 
previous tenure at DOE--some of you were here then--and in the 
years since, and I am committed to working with Congress in 
search for solutions to this country's energy and nuclear 
security challenges.
    Mr. Chairman, I have submitted a longer statement for the 
record and I look forward to your observations, suggestions, 
and questions. Thank you.
    [The prepared statement of Mr. Moniz follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Whitfield. Well, thank you, Mr. Secretary. We 
appreciate your comments and look forward to working with you 
as you move forward at the Department of Energy.
    I think today's opening statements reflected the divergent 
views here in the Congress about energy and its impact on 
economic growth and job promotion. And Mr. Waxman talks about 
climate change, and I know that he genuinely is concerned about 
that issue, as we all are. And I think one of the key issues 
that many of us that are elected to represent over 700,000 
people each is our economy has been very sluggish. We are 
trying to promote economic growth, we are trying to create 
jobs, we are trying to increase revenues for the government so 
we can do more programs.
    And many of my friends on the other side of the aisle, as I 
said, are very sincere in their views, and they would like to 
see us go right down the road the European Union has gone down, 
and we know that the European Union has pursued a broad range 
of climate policies, including renewable energy subsidies for 
wind and solar power. They had a cap-and-trade system. But the 
results of this, it appears quite clearly, is not working.
    As I said, The Economist just a few months ago had a big 
article talking about ``Europe's energy policy delivers the 
worst of all possible worlds.'' And their gas prices are so 
high, you have companies leaving Europe. They closed all their 
nuclear power plants in Germany. They were backing away from 
coal, and now, they are planning to build 69 new coal-powered 
plants in Europe.
    And then recently, we had this article in the New York 
Times, ``high-energy costs plaguing Europe.'' And they talk 
specifically about how the head of the European power and 
carbon at the energy consulting firm in Paris said we embarked 
in Europe on a big transition to a low-carbon economy without 
taking into account the cost and without factoring in the 
competitive impact.
    And I know many of our friends on the side of the aisle 
view us as we are too far this way and we think they are too 
far that way, so we hope that you can help lead this country in 
a more balanced approach on energy.
    I am a fan of the Sierra Club in that it has done a lot of 
good things for America and protecting our environment, but 
when the president of the Sierra Club says we want to get to a 
place where we do not use any fossil fuels, and next week, the 
Sierra Club is going to be in Louisville, Kentucky; they are 
going to be demonstrating and protesting against the use of 
coal. And I don't think anyone realistically can say that we 
can meet our electricity demands in this country and remain 
competitive without a strong fossil fuel presence. You can't 
build enough windmills and solar panels to meet that need.
    And I talked to you soon after your confirmation and you 
are certainly not involved in it, but right across the line in 
Tennessee from my home State of Kentucky, Hemlock Corporation 
built a $1.4 billion plant to make some component parts for 
solar panels, and they said it was going to be 2,500 new jobs. 
There was government stimulus money in the project, and they 
announced in January after they got up to 400 employees that 
they were going to close the plant down. They were never even 
going to open the planet. So now they are down to 20 employees. 
They built a $20 million railroad line into that plant, and 
they are not going to move one product out of there. It is 
being closed down.
    So I think the challenge we face in this country is just 
having a balanced approach without someone saying, hey, we 
don't need fossil fuels at all. I do believe what the President 
said. We need an all-of-the-above policy, but frequently, my 
view is that this Administration says one thing and does 
another in that arena.
    Now, I meant to ask you some questions. I don't know how I 
got so worked up here, but one thing I would just ask you 
quickly on the Paducah plant. Hopefully, it is the Department 
of Energy's policy to try to maintain the viability of that 
plant and protect the 1,200 jobs there. Would you agree with 
that?
    Secretary Moniz. Yes, Mr. Chairman. We do agree with that.
    Mr. Whitfield. And you are going to consider requests for 
proposals for expressions of interest to continue to operate 
the plant?
    Secretary Moniz. Correct. In fact, if I may, I can even 
reflect on a little history in terms of the history with the 
Portsmouth plant where USEC ceased operations there in 2000. 
And the plan, which I think is a good model going forward with 
Paducah, is that we go into cleanup. That prepares the way for 
decommissioning but on a parallel track we look for new 
business opportunities to use the site, the people at the site, 
the resources that the site.
    Mr. Whitfield. OK. Thank you. My time is expired. I now 
recognize the gentleman from Illinois, Mr. Rush.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Secretary, as I stated in my opening remarks, it is a 
huge priority for me to ensure that all Americans, especially 
those who have been historically underrepresented in the energy 
field, have access to the employment, business, and economic 
opportunities that this industry provides.
    I stated in my previous statement that I have had talks 
with various industry leaders on the issue of jobs from both 
the demand and the supply side, and they have spoke of and they 
are very concerned with the fact that up to half of the current 
energy workforce in some sense will need to be replaced due to 
retirements and attrition over the next 5 to 10 years. And in 
order to replace these energy workers, the industry leaders are 
beginning to recognize that minorities and other historically 
underrepresented groups will need to be called upon to help 
fill these jobs. So we must therefore be proactive in ensuring 
that future workers are being trained with the necessary 
skills.
    Are you, Mr. Secretary, confident in your capacity and your 
programmatic trust, are you confident that your department has 
the resources, including the budget and staff, the authority to 
effectively engage the minority communities and help them enter 
into all aspects of the energy sector by helping them, creating 
access through training, STEM education, jobs, and other 
business opportunities?
    Is there anything that your department needs from the 
Members of Congress to make sure they assist you in your pro-
activity in terms of outreach to minorities?
    Secretary Moniz. Congressman Rush, thank you for the 
question. I think you raise a really important issue. As you 
say, the energy industry, I think, is booming and I think it 
has every indication that it will in the future from fossil 
fuel production to hopefully our leadership role in producing 
advanced technologies for the future. If you look at the 
demographics of our country and where they are heading, we will 
need to draw upon all of our people, women, minorities who have 
not yet played a sufficient role. So I think this is a place 
that I would really like to work with you on this.
    I might note that, recently, at the White House there was a 
focus on women in clean energy. Perhaps we could talk about 
doing some similar things with underrepresented minorities in 
that regard. I think we should focus on also what we do with 
small and minority businesses. We do have a program there.
    What I will do is I will go back and scrub where we are in 
terms of resources and authorities, and after I understand 
that, I would like to come back to you to discuss some 
specifics of what we might do.
    Mr. Rush. Mr. Secretary, I look forward to our discussions 
and our working together.
    I would like to just ask you a question about the impact 
that sequestration--sequestration is harming our 
competitiveness. In the race to see which country will lead the 
clean energy economy, your department has an important role. 
The ARPA-E has had several major technological achievements and 
commercial successes. These technologies have affected over 450 
million in follow-on investment from private sector after 
receiving just 70 million of initial investment from ARPA-E. 
How will the funding cuts due to sequestration effect the ARPA-
E in its mission to continue its support of research and 
development for breakthrough technologies?
    Secretary Moniz. Well, sir, clearly, the sequestration has 
had an impact. I believe the impact is about $1.9 billion 
across the Department, across all the missions. And, as of 
today, we are at about 1,500 workers laid off or with 
substantial furloughs. This obviously is affecting our work. I 
want to thank the Congress for working with us in some 
reprogramming, which has ameliorated the impacts in various 
sites. But clearly, we cannot avoid those impacts. So it is 
everything from putting at risk milestones in some of our 
cleanup programs to diminished research capacity in programs 
like ARPA-E.
    Mr. Whitfield. The gentleman's time is expired.
    At this time, I recognize the gentleman from Texas, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    And, Mr. Secretary, welcome. You are no stranger to the 
Committee, and certainly in the past few years have been a very 
forthcoming witness and decent representative for the 
Administration. So with that, we look forward to working with 
you.
    Secretary Moniz. Is ``decent'' praise?
    Mr. Barton. Decent is good. Decent is good. There are other 
D words that I could use that are not good, but decent is good.
    In your immediate position at MIT, you were an author or 
co-author of the study entitled, ``The Future of Natural Gas,'' 
and it recommended that the U.S. should not erect barriers to 
natural gas imports or exports. I share that.
    You are now the Secretary of Energy, and as Secretary of 
Energy, you are going to have some decisionmaking authority on 
whether to approve permits to export LNG to nations that do not 
have a Free Trade Agreement with this country. There is a 
rebuttable presumption in the law that the Department of Energy 
should authorize the permit unless they can find that it is not 
in the national interest. There is apparently a finding 
document, which, if it is public, I don't know that it is 
public. Could you enlighten the Committee on the evaluation 
process you are using on these permits and also enlighten us as 
to whether you still agree with the study recommendation that 
the U.S. should not erect barriers to natural gas imports or 
exports?
    Secretary Moniz. Thank you, Mr. Barton. And we have had 
many opportunities to talk before in the past. I should clarify 
one thing and then I will go directly to the answer. In terms 
of the study, I just want to emphasize that those statements 
were in somewhat different context in terms of they were 
addressing the potential for imports in about 25 years.
    But fundamentally, I think as the guidance, which you have 
stated, that there is a presumption of approving licenses 
unless there is something that would jeopardize the public 
interest, I think, reflects the kind of philosophy that you 
have just stated. So the question then becomes how do we judge 
the public interest? And there, I think there has been a whole 
set of criteria put forward as guides. They are not statutory 
but have been put forward by the Department, and certainly, 
these issues of balance of trade, of job creation, 
environmental considerations, energy security, domestic need, 
impacts on the economy are all part of that.
    Perhaps I can say what I am today. First of all, I am 3 
weeks----
    Mr. Barton. So far, you are doing a good answer at not 
answering the question.
    Secretary Moniz. Well, I am----
    Mr. Barton. I am assuming that at some point in time there 
will be a pony in all of this that you are giving us, and we 
will get an answer.
    Secretary Moniz. So I am 3 weeks and 2 days into the job.
    Mr. Barton. You are learning quickly.
    Secretary Moniz. And I have said that I have been reviewing 
assiduously the processes used to date and I am intending to 
move now expeditiously into evaluating the license 
applications. That will be done case-by-case, go right through 
them with the order, as has been stated by the Department in 
terms of the filing requirement.
    Mr. Barton. OK. Now, I want to make sure in the remaining 
minute, this study, this was when you were at MIT, ``the U.S. 
should not erect barriers to natural gas imports or exports.'' 
I am quoting that study correctly, correct?
    Secretary Moniz. Correct.
    Mr. Barton. OK. So that we haven't abused you there?
    Secretary Moniz. No, no.
    Mr. Barton. All right. You are now the Secretary of Energy. 
You have a different hat you have to wear. You did agree, 
though, that the presumption is that the project should be 
approved unless you believe it is not in the public interest. 
Now, I think you agreed with that statement?
    Secretary Moniz. That was----
    Mr. Barton. You agreed with that?
    Secretary Moniz. Right.
    Mr. Barton. And you just did say that you are going to look 
at these in an expeditious fashion, which, in my dictionary, 
means as quickly as possible.
    Secretary Moniz. Correct.
    Mr. Barton. So could you give us a time frame, the next 3 
months, the next 6 months? And I know you have got multiple 
projects, but would you be expecting to make some decisions in 
this calendar year? We don't want another Keystone pipeline 
thing.
    Secretary Moniz. Absolutely. Absolutely.
    Mr. Barton. OK. Thank you. Perfect timing, zero time.
    Mr. Whitfield. All right. Thank you.
    At this time, I recognize the gentleman from California, 
Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you.
    Mr. Secretary, you can play an important role in educating 
Congress and the public about the threat of climate change and 
the urgent need for action. There is no debate about the 
science that indicates that climate change is happening now and 
it is caused by humans and the impacts are real.
    Mr. Secretary, you are an esteemed scientist. You were 
unanimously confirmed by the Senate. Can you take a moment and 
explain why it is important for us to act now to address 
climate change?
    Secretary Moniz. Yes, thank you, Mr. Waxman.
    Well, first of all, I certainly agree that it is 
indisputable that we are experiencing warming and that the 
pattern of consequences that has long been expected--in fact 
are appearing around us--are unfortunately typically at the 
higher end of the predicted ranges, whether it is melting ice, 
which is easily visible, to the issues I think that you raised 
earlier, be they storm intensities, droughts, wildfires.
    Now, clearly, this is a statistical result as opposed to 
something that applies to any one event, but the fact is the 
pattern is completely consistent with that expected prolonged 
time only, unfortunately, accelerating faster than we expected.
    Mr. Waxman. Does that mean we should do something now?
    Secretary Moniz. Yes. And a key reason is that, in 
particular, especially carbon dioxide, the principal greenhouse 
gas associated with energy supply, resides in the atmosphere 
for many, many centuries. So it is a cumulative impact, not 
something that we can just kind of turn on and off very easily. 
And we are building up an irreversible momentum. So prudence 
suggests that I think we need to start talking about how, 
within the all-of-the-above energy philosophy, we manage the 
transition to a low-carbon economy.
    Mr. Waxman. Our chairman and others have said that, look, 
U.S. carbon dioxide emissions are at their lowest level in 20 
years. The implication is that no further action to address 
climate change is necessary. I don't believe that is the case. 
What matters is not whether U.S. emissions have declined; it is 
whether we are on track to decline in the future by the amount 
needed to prevent dangerous climate change.
    Mr. Secretary, are you aware of any reputable expert who 
believes we are currently on track to avoid dangerous climate 
change?
    Secretary Moniz. Well, certainly, the overwhelming 
preponderance--I mean nearly unanimous in the scientific 
community of relevance certainly expects that we are on a 
pathway to very negative consequences.
    Mr. Waxman. That is a mild way of putting it. Look, we are 
told that the market is working, that we are doing more than 
our share in the United States. The Europeans and others aren't 
doing nearly as much. And I just wanted to cite for you some 
information that I think is worth noting. This was all in a 
letter dated March 11, 2013, that Mr. Rush and I sent to 
Chairman Upton and Chairman Whitfield.
    We pointed out that the European Union is committed to 
reduce all greenhouse gas emissions from its member states by 
20 percent by 2020 compared with 1990 levels and is on track to 
meet this target. The European Union has pledged to achieve 
even more reductions if the United States and other developed 
countries would agree to do more.
    The President pledged, when he was in Copenhagen in 2009, 
we are going to reduce our greenhouse gas emissions by 17 
percent below 2005 levels by 2020. This is equivalent to a 
reduction of just 3 percent compared to 1990 levels. Several 
European countries outside the European Union have made more 
ambitious pledges than the U.S. Do you think we are the best in 
the world in reducing these emissions? You would think that 
recent carbon dioxide emission reductions in the U.S. is due to 
the marketplace. Now, it is certainly due to the fact that we 
are in a recession. It is due to the fact that we have more 
renewables. It is due to the fact that natural gas is playing a 
better role and that we are promoting renewable energy. Is that 
happening because of the marketplace or U.S. laws and policies?
    Secretary Moniz. Well, I think, as you have said, I mean, 
it is a mixture of drivers. Certainly, the large increase in 
gas use for the electricity sector has been a market-driven 
approach, but of course policies at the state and federal level 
have stimulated this, for example, this doubling of renewables 
only in the last 4 years, which is a major, major, major 
advance.
    Mr. Waxman. And we need more policies to accelerate the 
transition to a clean energy economy. Do you agree?
    Secretary Moniz. I think we need more technology and more 
policy to move towards the low-carbon economy.
    Mr. Waxman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Whitfield. At this time, I recognize the gentleman from 
Louisiana, vice chairman of the subcommittee, Mr. Scalise, for 
5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. Appreciate you having 
this hearing.
    And, Mr. Secretary, welcome to our committee. Thank you for 
coming to testify before us and talk about some of the issues 
that we work on here in the Energy Subcommittee.
    I know over the years a lot of us have been pushing for a 
true all-of-the-above energy strategy to open up more areas 
that are right now blocked for exploration in America to try to 
green-light projects like the Keystone pipeline so that we can 
bring in more energy from a trusted partner and friend like 
Canada that gives us less reliance on some of these Middle 
Eastern countries who don't like us, help our trade imbalance, 
and just many other things that are needed to expedite the 
process of producing American energy, keeping agencies like EPA 
from trying to interfere with the hydraulic fracturing process 
that has been so successful and opened up so many of these 
shale plays across the country that are not only creating a lot 
of American energy but a lot of jobs, really a bright spot in 
our economy.
    Your predecessor in this position had made comments over 
the years that we should have gas prices at the levels of 
Europe and really pushed for an energy policy that, I think, 
the President shared that actually has led to making less 
American energy, made it harder for us to open up areas and do 
more exploration in America.
    I am curious to see what your overall strategy is on energy 
in general but also specifically things like gas prices as 
families still pay over $3 a gallon right now, and with the 
summer approaching, likely to be paying higher. Do you have a 
plan to try to lower gas prices, to try to increase American 
energy, to try to keep the Federal Government from making it 
even harder to produce in this country than it is right now and 
create those jobs? If I can just throw that out to you.
    Secretary Moniz. Quite a few questions in there, thank you.
    So, first, again, I very much subscribe to the President's 
all-of-the-above strategy and I think----
    Mr. Scalise. We disagree with the President's definition of 
``all of the above.'' It seems to be more focused on above and 
nothing below, which is not all of the above.
    Secretary Moniz. Yes, I mean, with all due respect, I would 
have to say, the ground truth is, as we all know, that oil 
production is up dramatically. In fact, we had a little----
    Mr. Scalise. And, I mean, I have actually had a 
conversation with the President about this because he says that 
a lot. He says oil production, energy production, has never 
been higher under his Administration. When I pointed out to him 
in fact on federal lands it is actually dramatically down; on 
private lands it is up. And so in the areas where the President 
has no control it is up, but in the areas where he has had 
control, it has been down in many cases because of his 
policies.
    So I do think it is disingenuous for the Administration to 
go out and say, you know, and the President himself to say 
since I have been President, energy production has never been 
higher, when in fact his policies on federal lands have 
actually reduced production. And that is a fact that the Energy 
Department has actually confirmed.
    And so, as you say that, you can say it because it is an 
accurate statement across the board to say it is higher, but on 
federal lands, energy production is down in many cases because 
of the Administration's policies. And that is why we disagree 
with this connotation of all of the above.
    I mean, you can't be for all of the above when you are 
saying no to Keystone, when you are making it harder to 
actually explore on federal lands for American energy. And so I 
hope you understand that distinction.
    Secretary Moniz. No, I understand. I was trying to address 
it. I think the reality is it is a question of what choices are 
made by private companies where they want to go to drill. There 
are many leases--this is a Department of Interior issue----
    Mr. Scalise. Right.
    Secretary Moniz [continuing]. Not Department of Energy, but 
there are many leases going unused on federal lands. The fact 
is the industry is moving hard and producing more oil, moving 
hard and producing more gas. There are some infrastructure 
issues which will involve both state and federal permitting, 
but, I mean, the ground truth is we are producing more oil. We 
are producing more gas. We are----
    Mr. Scalise. But do you recognize that where we are 
producing more gas is primarily on private land and on federal 
land, production is lower?
    Secretary Moniz. These are facts but all I was saying is--
--
    Mr. Scalise. But as Secretary of Energy, though, would you 
encourage a change in that policy where we can actually open up 
some of those federal lands that are right now closed? I mean 
so many areas of our federal lands across the country are 
closed to production where you have got very rich reserves. You 
know, we have been trying to get the Administration to be an 
all-of-the-above administration and open some of that up. Would 
you be open to kind of promoting that as Secretary of Energy 
where you have a bully pulpit to push for that kind of increase 
in production on federal lands where it is down?
    Secretary Moniz. Again, we both understand that is a 
Department of Interior responsibility----
    Mr. Scalise. Right, but I mean you are the Secretary of 
Energy. And you have the President's ear on energy issues in 
general.
    Secretary Moniz. In terms of where I am is, A) supporting 
the idea that the country pursues what we call ``all of the 
above.'' That is, we will continue to produce more oil, 
decrease our exports, help our balanced trade. The Department 
of Energy will be supporting that certainly in trying to 
advanced technologies for environmentally sound production. We 
want to work with our other sister agencies like DOI and EPA in 
terms of getting better data. There are issues such as methane 
emissions and beneficial reuse by the companies. I had a 
meeting this morning in fact which was very, very interesting 
in that regard.
    So I think we are totally supportive of this vision of 
pushing all of the above.
    Mr. Scalise. I look forward to working with you on that 
and----
    Mr. Whitfield. The gentleman's time is expired.
    Mr. Scalise [continuing]. I know that we will have more of 
this. I know I am out of time.
    Secretary Moniz. Oh, I am sorry.
    Mr. Scalise. I appreciate that. I know we will have more of 
this conversation in the future but thanks for coming----
    Secretary Moniz. Thank you. I would be happy to discuss 
that.
    Mr. Scalise [continuing]. And I think congratulations on 
getting this new position. I look forward to working with you.
    Mr. Whitfield. At this time, I recognize the gentleman from 
California, Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for coming today. It is a good 
thing to get to know you a little bit. I haven't been on the 
committee long enough to see your testimony before, so I 
appreciate your coming forward.
    Secretary Moniz. Thank you.
    Mr. McNerney. I want to talk a little bit about fracking. 
We are going to be producing a lot of natural gas and oil using 
that technique, and that may be beneficial, but there is a 
significant risk in my opinion of natural gas escaping into the 
environment, which is a strong greenhouse gas, and potential 
for groundwater contamination, which is very important in 
California and many Western States.
    I see a budget request of $17 million for research into the 
safety of fracking. Do you think that is going to be a 
sufficient amount to help guide us through this boom in the 
fracking that we are going to be seeing?
    Secretary Moniz. Well, of course, the $17 million request I 
think is very important for getting engaged in this but of 
course there is a lot of work as well going on through 
industry. There is work going on in a cost-shared way using the 
Royalty Trust Fund. So I think the DOE component and also 
Interior and EPA, so the DOE component is one part. I think a 
key will be for us to make sure that we are kind of integrating 
what we support with that of what other agencies and the 
private sector are doing.
    Mr. McNerney. OK, good. Thank you.
    Secretary Moniz. And I would just add the methane emissions 
that you alluded to is something we clearly need to get our 
arms around. Currently, the estimate is that about 2 \1/2\ 
percent of total greenhouse gas emissions in the United States 
is CO<INF>2</INF> equivalent of methane emissions in fossil 
fuel production, so it is about 2 \1/2\ percent, but the data 
are not very good, number one.
    And, number two, we believe there are many opportunities to 
capture and beneficially use that methane in the production.
    Mr. McNerney. Thank you. To change the subject a little 
bit, what do you think are the biggest barriers to financing 
clean energy projects today?
    Secretary Moniz. Oh, there are lots. I think one issue is--
well, turning it around, how can one mobilize a lot of private 
capital that is kind of on the sidelines today to come in in 
terms of clean energy and clean energy projects? This is 
something that I have brought in some new people. We are trying 
to analyze these issues.
    But I will give you as an example it is very difficult to, 
say, in the renewable space, say distributed solar, we have a 
lot of small projects. You have nothing like what I would call 
the standard contracts as you have in the mortgage business, 
and therefore, it is very difficult to aggregate them and be 
able to get access to the kinds of capital markets that one can 
in other parts of the energy industry. So these are the things 
we need to discuss, I think.
    Mr. McNerney. And you are going to be aggressively moving 
to find the solution?
    Secretary Moniz. And, as part of this Quadrennial Energy 
Review, we will be working with Treasury and OMB and others 
trying to see what are the right mechanisms to stimulate 
private capital coming into these markets more strongly.
    Mr. McNerney. OK. Well, I understand that the DOE has a 
stated goal of wind energy producing 20 percent of our 
electricity by the year 2020. Is that a realistic goal? Can we 
make that goal?
    Secretary Moniz. That is the President's goal.
    Mr. McNerney. Can we make that goal?
    Secretary Moniz. We are going to try. Yes.
    Mr. McNerney. So part of the barriers are financial 
barriers?
    Secretary Moniz. Yes. I would have to check this, but I 
think we are about halfway there so we have to pick up the 
pace, and moving private capital in would be important.
    Mr. McNerney. And then moving on to electric vehicles, what 
are our barriers in terms of getting electric vehicles accepted 
in the marketplace?
    Secretary Moniz. Well, electric vehicles clearly have a lot 
of promise. In fact, the Tesla was--of course, it is an 
expensive vehicle, but Tesla was rated by Consumer Reports as 
the best car they ever tested, not in that year, but ever. I 
mean I think often what we forget is electric vehicles are very 
high-performance vehicles.
    Now, clearly, the biggest barrier right now is getting the 
cost of the batteries down because if you want to have a long 
range on electric drive, you are talking today a battery that, 
you know, is literally in the tens of thousands of dollars.
    Mr. McNerney. And there is some promising technology in the 
DOE in that area?
    Secretary Moniz. And so there has been about a 40 percent 
drop in net cost in the last few years. We have got to keep 
driving down. The goal is to get to $100 to $200 per kilowatt 
of storage. Today, we are in the 5, $600 range.
    Mr. McNerney. Thank you, Mr. Chairman.
    Mr. Whitfield. The gentleman's time is expired. At this 
time, I recognize the gentleman from Texas, Mr. Hall, for 5 
minutes.
    Mr. Hall. I thank you, Mr. Chairman.
    And Mr. Waxman has made a statement that, as I understood 
it, climate change is caused by people, and I like to agree 
with him sometimes, but the closest I can get to that is it 
punishes people. It punishes taxpayers. It punishes taxpayers 
to the extent of $34 billion and we haven't gotten anything 
yet, nothing that alludes to getting the benefit of the money 
that the taxpayers have had to pay out. I don't think you 
disagree with that, do you?
    Secretary Moniz. I am sorry, Mr. Hall, if you could clarify 
the question. I didn't quite understand it. I apologize.
    Mr. Hall. It wasn't a question. It was a statement.
    Secretary Moniz. Oh, I am sorry.
    Mr. Hall. That Mr. Waxman said climate change caused by 
people--and the Sierra Club, and I am certainly not a fan of 
the Sierra Club; I want that to go on the record. I think they 
are an enemy of anybody that is 18 years old or older that 
needs a job or is looking for a job. But climate change has 
cost the taxpayers $33 to $34 to $35 billion so far and we have 
gotten very little out of that. How can you disagree with that?
    Secretary Moniz. Well, sir, the----
    Mr. Hall. And what have we got out of it?
    Secretary Moniz. I am sorry? Oh, OK. So, well, I would say, 
first of all, as we said before, the United States, among 
industrialized countries, is unique in having decreased our 
CO<INF>2</INF> emissions; but secondly, I think we have laid 
the foundation for a new technology enterprise in this country.
    Mr. Hall. You laid the foundation that nobody is following. 
Russia is not, Mexico is not, India is not; no one is helping 
us. They want us to clean the world. You are not recommending 
that, are you?
    Secretary Moniz. Well, I would be happy if we are----
    Mr. Hall. If we could, I would be happy, too.
    Secretary Moniz [continuing]. Of exporting technologies to 
those countries.
    Mr. Hall. Let me get to my real questions. New York Times 
earlier this year related the power shortages in New England 
and noted the importance to the region of being able to import 
power from the Indian Point nuclear facility quoting one 
individual as saying, ``without Indian Point, New England would 
have been toast.'' The situation in New England was due to an 
overdependence on gas. Would you agree this reflects why it is 
important to have fuel diversity?
    Secretary Moniz. Definitely.
    Mr. Hall. All right.
    Secretary Moniz. Yes.
    Mr. Hall. And in your view do nuclear facilities play a 
critical role in ensuring the reliability of the grid?
    Secretary Moniz. Well, clearly, nuclear power is 20 percent 
of our electricity today, and it is carbon-free.
    Mr. Hall. And did you know that, Mr. Secretary, during your 
confirmation hearing, you promised to review what is out there 
before approving any additional LNG export applications? And I 
think Mr. Barton got into that a little bit. Let me ask you a 
little bit more. Can you update the Committee on the progress?
    Secretary Moniz. It has gone very well. Frankly, tomorrow, 
I have perhaps the key summary meeting on the review and also 
we have had the EIA look at how developments in the markets in 
the last few years might influence this, but I think, as I said 
to Mr. Barton, we are getting pretty much ready to start 
evaluating the dockets on a case-by-case basis.
    Mr. Hall. At an event in Palo Alto this last week, 
President Obama reportedly said, ``we believe in a light touch 
when it comes to regulations.'' Would you characterize EPA's 
wave of rules affecting the energy sector during the 
President's first term as a light touch?
    Secretary Moniz. Well, sir, again, I am at the Department 
of Energy. We are not doing those regulations. I look forward 
to working with the EPA as appropriate in terms of providing 
analytical basis, technical advice, but it is clearly their----
    Mr. Hall. And you should. You have a tough job. For one, it 
has been working on energy science and security issues for most 
of your professional life, served on the MIT faculty beginning 
in 1973, included as head of the Department of Physics. You 
were the founding director of MIT Energy Initiative in 2006. 
That seems like that knowledge that you have gleaned there and 
that you have departed makes it pretty tough for you to agree 
with the person that appointed you?
    Secretary Moniz. Well, sir, I completely agree with the 
President in terms of, again, all-of-the-above energy approach, 
and I think the facts on the ground support----
    Mr. Hall. Would you characterize EPA's wave of rules 
affecting the energy sector during the President's first term 
as a light touch?
    Secretary Moniz. Again, I think the EPA is statutorily----
    Mr. Hall. And you agree with that, the way the EPA has 
handled their business?
    Secretary Moniz. That is not for me to judge.
    Mr. Hall. But I will just ask you one last question.
    Mr. Whitfield. The gentleman's time has expired, Mr. Hall.
    Mr. Hall. In that case, I will yield back my time.
    Mr. Whitfield. OK. Thank you.
    At this time, I recognize the gentlelady from California, 
Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman.
    And congratulations on your confirmation, Secretary Moniz, 
and thank you for your testimony.
    The Department of Energy has been doing great work in 
recent years, particularly in the development of renewable 
technologies. Basic research is obviously critical to 
developing these technologies and I know you understand this 
coming from MIT.
    The fiscal year 2014 budget clearly prioritizes this 
research, and I commend the Administration for making a firm 
commitment to this critical work even in these tough fiscal 
times. I am fortunate to have to world-class research 
institutions in my district--Cal Poly San Luis Obispo and UC-
Santa Barbara--that have benefited from DOE funding.
    For example, UCSB is one of DOE's Frontier Energy Research 
Centers and has produced numerous local spinoff companies. Just 
earlier this year, a Cal Poly research team received a DOE 
grant to further advance its research in reusing the wastewater 
used in the production of algae-based biofuels. This research 
project could produce technologies that could save Californians 
hundreds of millions of dollars in water recycling costs each 
year. These research dollars are creating tangible economic 
benefits in my district, and I am sure there is quite a similar 
impact at other universities throughout the Nation with their 
surrounding communities.
    Could you elaborate briefly on this? I want to ask you a 
couple more questions as well, but what are some other examples 
of DOE research dollars being turned into tangible benefits for 
taxpayers?
    Secretary Moniz. Thank you for the question.
    Well, those are two outstanding institutions, and as you 
say, actually our great research universities across this 
country are really engines of innovation, particularly when 
they are embedded in a broader system of investors, et cetera. 
So if one just looks at ARPA-E as an example----
    Mrs. Capps. Yes.
    Secretary Moniz [continuing]. We are getting close to about 
300 projects, which have been funded, and you take a subset of 
less than 20, you have a multiplier of like a factor of five in 
terms of private capital coming in to follow those investments. 
That is just one example of this multiplier effect.
    Mrs. Capps. Let me try another topic. I know you probably 
have several other examples you could cite immediately, but 
meeting our renewable energy needs is going to require more 
than just research. So many great ideas are developed in the 
lab that never make it into the marketplace due to a lack of 
investment. The biggest issue I hear from these energy 
innovators in my district is the difficulty they have in 
bridging what they call the valley of death.
    What is DOE doing, if you are doing anything at all, to 
address this problem and help move more technologies out of the 
lab in the research institution out into that marketplace?
    Secretary Moniz. I might just add that many, many of them 
would say there are actually two valleys of death. They have to 
get through both of them to scale in the market. But I think in 
particular at the Department I would highlight three programs 
there. One is ARPA-E, as I already mentioned, which I think is 
developing a strong track record of getting things into the 
economy. Another, which I think will take a little bit more 
time to judge, but the Energy Innovation Hubs, these are 
structured so that they can work on a specific problem but 
anywhere across the innovation chain as it makes sense for that 
problem to move out into the marketplace.
    In California, there is one on Sunlight to Fuels, for 
example. And of course a third has been the loan programs, for 
example, which started in the last administration, came to this 
administration and have helped move some of the world's largest 
concentrated solar plant, for example, in California is about 
to have first light.
    Mrs. Capps. Thank you. I do want to get one further 
question out on a solar technology. There are so many roofs and 
parking lots and homes, businesses, nonprofits, government 
buildings that are perfect for solar, yet go unused because the 
owners can't afford the high cost of installation. I faced this 
same challenge when I wanted to do something in my own private 
home in Santa Barbara.
    Thankfully, my county, Santa Barbara County, has a program 
that they call emPowerSBC in Santa Barbara County. It helps 
secure low-cost financing and rebates for homeowners that want 
to install solar and other energy-efficient programs. These 
programs are not very common yet. Is there anything you are 
doing to encourage the development of programs like emPowerSBC 
help make small- and medium-scale solar more widely available?
    Secretary Moniz. Well, part of that, as I alluded to 
earlier in terms of looking at how to move private capital off 
the sidelines----
    Mrs. Capps. Yes.
    Secretary Moniz [continuing]. Is that I think we need to 
find ways of better aggregating small projects into ways with 
uniform contracting that can attract, you know, market capital 
into the game. That is one point.
    A second point is what I did not mention earlier but I have 
emphasized in the Department that one of the kind of shifts in 
philosophy a little bit that I want to emphasize is much more 
work with States. I think States have been a center of 
innovation in advancing energy. One of the issues, however, is 
we have enormous variability and so we could not do one-size-
fits-all.
    Mrs. Capps. Right.
    Secretary Moniz. I think we need to work with the States 
and then build up from the States to a more national.
    Mrs. Capps. Thank you very much.
    Mr. Whitfield. Time is expired.
    At this time, I recognize the gentleman from Illinois, Mr. 
Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    The Administration's proposed budget cuts 46 million from 
the Office of Energy's carbon storage research line. This is 
down from 107 million it was funded at last year. This program 
funds research at the Carbon Sequestration Project in Decatur, 
Illinois, which is already halfway to injecting a million 
metric tons of carbon. The University of Illinois, as a part of 
the Midwest Geological Sequestration Consortium, has great 
concern that these cuts will leave the research incomplete, 
compromising the 3-year monitoring phase demonstrating the 
project's safety and viability.
    I have a letter here from the University of Illinois that 
goes into greater detail on the project, its progress and 
success to date, as well as recommendations for moving forward, 
and I would ask, Mr. Chairman, for unanimous consent for the 
letter to be submitted for the record.
    And for you, Mr. Secretary, I will provide you with a copy 
of that letter directed to you and your staff for review and 
consideration. So if I could do that, Mr. Chairman.
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And then to my favorite topic, Mr. Secretary, 
as you are aware, the Circuit Court of the District of Columbia 
has a pending case before with regard to whether the Nuclear 
Regulatory Commission must review the Yucca Mountain repository 
license application mandated in the Nuclear Waste Policy Act. 
If the court orders the NRC to resume the license review, will 
you honor the court's decision and support the NRC process?
    Secretary Moniz. We will follow the law, sir.
    Mr. Shimkus. Good answer. I wish we were following it now. 
That is the problem. This past April, Assistant Secretary Peter 
Lyons testified before the House Energy and Waters 
Appropriations Subcommittee that DOE currently has 18.5 million 
from nuclear waste fund carryover that are unspent from prior 
appropriations. Is that your understanding?
    Secretary Moniz. Sir, I will have to explore that. I am not 
aware of that specific number.
    Mr. Shimkus. It is a similar question that I asked before 
so I think your staff should be pretty well in agreement with 
that. So if you would get back to us if that is the case.
    Secretary Moniz. It appears to be correct, I think.
    Mr. Shimkus. Good. Good answer. If the Court rules and you 
find that DOE has insufficient funding to fully support the 
license review process, will you commit to prepare and submit a 
supplemental budget request this fiscal year if needed? Now, 
remember, the court has ruled that they have to finish the 
study. You have got some money available. If you are going to 
comply with the law, if you need additional funds, would you 
then let us know what that would be?
    Secretary Moniz. I presume that would be the path forward.
    Mr. Shimkus. I will take that as a yes, thank you. Are you 
aware of any technical or scientific issues that would prevent 
Yucca Mountain from being a safe repository?
    Secretary Moniz. Well, I think the answer to that question 
really would come out from a detailed look. To be 
straightforward, I am on the record many, many years ago as 
pointing out that there are some issues in terms of, to be 
mildly technical about it, it is an oxidizing environment, and 
one would probably prefer a chemically reducing----
    Mr. Shimkus. Well, and that is the importance of the final 
report which will make a judgment of whether it is safe for a 
million years or not and that is what we await and hopefully 
the court----
    Secretary Moniz. And obviously, that is what I said. That 
is an NRC decision ultimately to be taken, but there is that 
little scientific factoid.
    Mr. Shimkus. DOE's document strategies for management and 
disposal of used nuclear fuel and high-level radioactive waste 
issued on January 11 of this year and dictates legislation is 
needed to deploy that strategy. Why hasn't the Administration 
sent legislation to Congress yet?
    Secretary Moniz. I believe the Administration's position is 
that it will be working with the Congress to develop it, and I 
might say that I have personally been working with some 
Senators on their draft and I would be happy to work with 
Members in this chamber.
    Mr. Shimkus. I would suggest, since we have a bicameral 
legislation, a legislative body, and there are two chambers 
that might be helpful if you would have ideas of how to move 
forward, that you would come and talk to us.
    Secretary Moniz. If I was asked to come and join the 
discussion, I would be most delighted to accept an invitation 
here as well.
    Mr. Shimkus. Thank you, Mr. Chairman. And with that, I will 
yield back my time.
    Mr. Whitfield. Thank you.
    At this time, I recognize the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Congratulations, Secretary Moniz, on your appointment and 
confirmation. You will bring a fresh perspective to the 
Department, so good luck to you. I look forward to working with 
you.
    I want to bring to your attention an important issue 
relating to the economic well-being of our country, 
particularly jobs in American shipping, our ports and related 
businesses. It involves the Jones Act and the excessive numbers 
of waivers that the Administration and the Department of Energy 
have granted to that important federal law.
    Mr. Secretary, the Jones Act requires that cargo that is 
shipped between U.S. ports, domestic ports be transported on 
American vessels. The law is vital to our Nation's economic and 
national security because it supports the core maritime 
industries of our country, American shipbuilding and American 
jobs.
    In 2011 when the Administration tapped the Strategic 
Petroleum Reserve and a few other times, the Administration 
agreed to almost 50 waivers of the Jones Act. This is more than 
all in American history combined, and it was excessive. The law 
says that in order to grant a waiver, there must be a national 
security emergency and domestic carriers must not be available. 
They must be unavailable.
    At that time, that was the time of the Libyan conflict and 
I guess the powers that be decided that it was more important 
to get that oil delivered. But it was an excessively high 
number of waivers. It took jobs from American maritime 
industries, American cargo vessels. The work went instead to 
foreign shippers, and I just think this is very poor public 
policy, particularly at a time when we had a high unemployment 
rate. The only ones that really benefited at that time were the 
oil speculators and foreign-owned oil companies and foreign 
shippers.
    So I wanted to ask you at the outset of your service, can 
you assure me that you and the Department will stand by 
American workers and American businesses, support the Jones 
Acts and the related American jobs and U.S. maritime industries 
and look very skeptically upon further waiver requests?
    Secretary Moniz. Well, certainly supporting American jobs 
is obviously one of our key objectives. And so we are totally 
committed to that. On this particular issue, I was not aware of 
these particular waivers, but I can assure you that to the 
extent to which I am involved in that discussion--and I am not 
entirely sure at the moment--that we clearly will follow the 
law and the guidance in terms of only emergency waivers of the 
Jones Act.
    Ms. Castor. I appreciate that. And I thought that might be 
the case and just wanted to bring that to your attention at the 
outset of your services, Secretary.
    Secretary Moniz. Thank you.
    Ms. Castor. On another topic, as we look at all of the 
various sources of energy, the power of America, it seems like 
the one big area that is out there that is clean, that would 
save consumers money, is in energy efficiency. And I don't 
think that we have done enough to unlock the power of consumers 
to implement smart technology to be able to pick up their 
smartphones and change the thermostats to do things on set 
clock stops on table. I think that technology is changing 
quickly and I think there is significant energy savings.
    It seems like the entire business model for electric 
utilities is outdated now, and we should be looking at 
incentives for them to promote conservation to a greater 
extent. What are your priorities? What do you see in the 
future? What do you think the Congress should be focused on to 
move in that direction?
    Secretary Moniz. Thank you. First of all, I think 
immediately after I was sworn in, within 2 hours I was speaking 
at an efficiency meeting, which was symbolic in a certain sense 
of the very high priority. This will be a major focus area. For 
the Department, there are several threads and I would be happy 
to come and discuss this in more detail.
    Of course, one is that the Department does have compliance 
with efficiency standards responsibilities. Frankly, we need to 
accelerate getting a number of those out, which are in various 
stages of review in the Department and in OMB.
    Number two, I think we need to really advance the enablers, 
and I think you already alluded to it, particularly the 
integration of information technology, smart grids, controls, 
sensors, consumer choice. So that is second.
    And third, I would say this is very much in the line of the 
emphasis I want to give to working with States because, for 
example, you mentioned utilities and we need to talk about the 
utility of the future, which is not the same thing as the 
future of the utility because there may be very many different 
services involved in the utility of the future. But the 
regulatory structures are very different in different States, 
and so the programs again cannot be a one-size-fits-all. But I 
think we need to work with the States in providing assistance 
in moving in a direction that you outlined.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time, I recognize the gentleman from Texas, Dr. 
Burgess, for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Secretary, welcome to our humble little committee, 
appreciate you being here today, look forward to lively 
exchanges with you during your tenure.
    This year in December will mark the 60th anniversary of 
when President Eisenhower went before the United Nations and 
gave his very famous ``Atoms for Peace'' speech. The United 
States Congress the following year took up that concept and 
passed the Atomic Energy Act of 1954 and declared that we 
should use atomic energy to make the maximum contribution to 
the general welfare. One of the purposes of the Act was to 
provide for ``a program of international cooperation to promote 
the common defense and security and to make available to 
cooperative nations the benefits of peaceful applications of 
atomic energy as widely as expanding technology and the 
considerations for the common defense will permit.''
    So in light of the challenges that we have in developing 
domestic nuclear energy, would you agree that nuclear exports 
can help maintain a sustainable commercial nuclear 
infrastructure in the United States?
    Secretary Moniz. Certainly, and in addition, support our 
nonproliferation aims.
    Mr. Burgess. Correct, which was part of the intent of 
President Eisenhower's appearance at the United Nations that 
day. So as a committee, can we look forward to you working with 
us to explore and examine ways to increase the United States' 
competitiveness in the nuclear trade?
    Secretary Moniz. Yes, indeed. And I might add also if I 
may, sir, that Deputy Secretary Poneman has also been very, 
very committed to this same issue.
    Mr. Burgess. Very well. One element of the atomic energy 
mission involves the Department's role in the export of nuclear 
technology. Probably preceding your tenure by just a little bit 
in March, the Committee wrote the Department of Energy for 
detailed information concerning how the Department implements 
its nuclear technology export reviews. The response from the 
Department was received last week, probably was not adequate, 
and I think your staff is aware of the Committee's feelings on 
that.
    So as a committee, can we count on you providing a more 
robust response to our requests on this important issue?
    Secretary Moniz. I will certainly look into that and get 
back to you, sir.
    Mr. Burgess. I have copies of our original letter and the 
response, and, Mr. Chairman, I will ask unanimous consent to 
enter these into the record.
    Mr. Whitfield. Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. We will make them available to you before you 
leave today.
    Secretary Moniz. Thank you.
    Mr. Burgess. And then one important benefit of increased 
United States nuclear exports is to ensure that the United 
States' know-how on safety and security is implemented 
worldwide. Will you help us by taking a close look at the 
Department's and the National Nuclear Security Agency's current 
activity regarding export controls to ensure the process 
continues to work for the benefit of the United States?
    Secretary Moniz. I would be happy to work with you on that. 
It is an important issue, yes.
    Mr. Burgess. Well, I thank you for your responses to those 
questions.
    I had a question on the actual line item of the budget that 
we received. I guess it was referred to as the highlights. And 
under the section dealing with fossil energy--I apologize for 
not having turned to it earlier so I would have the page number 
for you--but you look down the line. All the numbers are 
negative in the--oops, sorry. That is renewable energy. Let's 
just skip ahead, shall we?
    Fossil energy, page 33, if you look at the line items, they 
are fiscal year 2014 versus fiscal year 2012. For fiscal year 
2014 all of the numbers are negative and substantially 
negative, and yet the total fossil research energy and 
development is reported to be plus $83 million. I guess the 
line item that confuses me on that page is the line that says 
``adjustments'' about halfway in the page under total fossil 
energy, last line item that is entered and there is a line that 
says ``adjustments.'' Can you tell me what ``adjustments'' is 
referring to? Or, if not, can you possibly get back to us and 
let us know what that represents?
    Secretary Moniz. I think I had better get back to you on 
that and not give an incorrect answer. So we will do that 
promptly. I do want to note that, of course, in addition to 
what is here, there was several billion dollars already put in 
to the currently going Carbon Capture Utilization and 
Sequestration Demonstration project. So that is not captured 
here in this budget.
    Mr. Burgess. Very well. And just to note, I appreciate your 
comments on the fracking issue, the fact that it can be done 
environmentally in a safe manner. The United States should be 
the leader in developing that technology, and indeed, we should 
be exporters of that technology to other places in the world. 
And I thank you for that.
    Mr. Whitfield. The gentleman's time is expired.
    At this time, I recognize the gentleman from New York, Mr. 
Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. Mr. Secretary, 
congratulations.
    Secretary Moniz. Thank you.
    Mr. Tonko. It is great to have you here before the 
Subcommittee.
    I represent a district in New York in the capital region of 
New York, which has incorporated much wind opportunity into the 
State's supply of energy. Can you give us an overview of what 
the Department of Energy is doing to spur the ongoing 
development of advanced wind energy?
    Secretary Moniz. Well, there are obviously two major 
directions. One is on the technology side. There is, for 
example, a focus on helping simulate the technology for 
effective use of lower wind speeds, which would greatly 
increase the deployment possibilities. And another one is to 
basically try to drive down the cost of offshore wind, which 
where, of course, you have a great resource but it is a 
difficult environment to work in. So that is on the technology 
side.
    And the other dimension I would say is some of the loan and 
assistance projects have helped deploy substantial amounts of 
wind and solar.
    Mr. Tonko. Thank you. And I have had legislation that will 
deal with efficiency in terms of wind turbines and their 
assembly, how they are manufactured, how they are placed in 
order to get the maximum for the investment.
    Not only are we using more and more wind power, I am told 
we are building more of it right here in the U.S. The wind 
components such as turbines and towers, blades, gears are 
increasingly being built by United States' manufacturers. My 
understanding is that the percentage of wind components that 
are domestically manufactured has doubled from 35 percent in 
2005 to 70 percent today. Do you find that accurate?
    Secretary Moniz. I don't know the precise numbers but I do 
know the trend is in that way. And by the way, in addition, 
wind I believe was the largest capacity addition over the last 
year in the American system.
    Mr. Tonko. OK. And is DOE's wind program on target to 
reduce the average cost of utility-scale onshore wind power to 
around 5 cents a kilowatt hour by, I believe it was the year 
2020?
    Secretary Moniz. Yes, I think. Of course, it depends upon 
the location, et cetera, but in good wind locations the costs 
are dropping dramatically. Five cents is a very reasonable 
expectation. Of course, there is the other issue up sometimes 
those good wind locations are far away from the load center and 
we have to solve the transmission problem.
    Mr. Tonko. Right. And what about the interconnect systems, 
too, because I am told that much of the capacity for wind--
especially wind, perhaps solar--but we have interconnect 
situations that are still of major concern?
    Secretary Moniz. Well, you mean in terms of the 
transmission?
    Mr. Tonko. The transmission or the actual technology that 
needs to be perhaps better developed or more high-tech in 
nature.
    Secretary Moniz. Well, I am not certain of that, sir, but 
what is an issue potentially is, for example, if you have 
remote, high-quality wind farms, you might want to go to high 
voltage direct current lines, and for that, technology in terms 
of the power electronics is very important because----
    Mr. Tonko. Right.
    Secretary Moniz [continuing]. With D.C. it is the ends that 
kill you.
    Mr. Tonko. Absolutely. Now, you somewhat alluded to this, 
Mr. Secretary, in that there are some barriers out there, long 
distances by which to get wind over to the source that is 
required. What is the Department doing to address those 
barriers to widespread wind development?
    Secretary Moniz. Well, again, on the technology side a key 
issue is large-scale storage. And, for example, the Department 
supports some very interesting work in terms of efficient 
compressed air storage. So if we can have storage that meets 
the scale of intermittent resources, then you have the 
opportunity to dispatch it and you solve that problem. In the 
nearer term, until these costs come down, I think we have a lot 
more to do, and NREL in particular is looking at the 
integration of natural gas in renewables. That is another way 
to balance the load-serving function.
    Mr. Tonko. In terms of the storage issue, what are the best 
hopes there for the development of battery types that will 
store incremental type powers?
    Secretary Moniz. Well, it is not only batteries. I mean, in 
fact, today, if you are in the right place, for example, in the 
TVA service territory, they have some very good pumped hydro as 
a way of storage. In general, hydro is a very good way of 
balancing renewables. There are more far-out things. ARPA-E 
funded a so-called liquid metal battery, a whole different 
architecture. There is compressed air. There are flywheels. So 
all of these technologies are being pushed. A lot of them are 
materials problems.
    Mr. Tonko. Thank you very much, Mr. Secretary. I yield 
back, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman, Mr. 
Terry, from the State of Nebraska.
    Mr. Terry. Thank you, Mr. Chairman. Mr. Moniz, I appreciate 
you being here. You have an impressive resume and you are doing 
a good job today.
    Secretary Moniz. Thank you.
    Mr. Terry. I have focused on natural gas as an energy 
transportation fuel, and I appreciated your comment in your 
written statement that domestic natural gas production over the 
past 5 years has helped contribute to market-led reductions in 
carbon dioxide emissions, as well as the expansion of 
manufacturing and associated jobs. We have actually held a 
hearing that I chair in the Commerce, Manufacturing, and Trade 
Subcommittee especially in the steel industry the importance of 
natural gas. And Ed and I are going to be doing, I think, next 
week in other manufacturing areas as a combined hearing. So I 
appreciate your comments and support, particularly for the 
manufacturing.
    But my questions are going to focus more on the 
transportation side. Would the same hold true if more semis and 
straight trucks and large fleets were to change from diesel or 
gasoline to natural gas? Would we see reductions in 
CO<INF>2</INF> emissions?
    Secretary Moniz. Yes. So if we convert gas to liquid fuels, 
typically, we do not see a reduction. But if we directly use 
the gas, then we can----
    Mr. Terry. So you are saying compressed versus liquid would 
have a benefit?
    Secretary Moniz. No, liquefied natural gas is fine.
    Mr. Terry. OK.
    Secretary Moniz. No, but I mean the other direction is to 
convert gas to a liquid fuel to convert it to a liquid fuel. 
That does not give typically any clear benefit.
    Mr. Terry. Doesn't it?
    Secretary Moniz. But CNG or LNG----
    Mr. Terry. It would.
    Secretary Moniz [continuing]. Would benefit as long as 
methane leakage is controlled.
    Mr. Terry. At the pump side or at the side of production as 
you had mentioned with talking about with McNerney?
    Secretary Moniz. If you use LNG for your Class A truck, you 
are going to have some boil-off, and so the question is how you 
control for safety reasons. And so the question is it is a 
quantitative issue.
    Mr. Terry. Right.
    Secretary Moniz. But the potential is there to save carbon.
    Mr. Terry. That is part of our intent, as well as not 
importing OPEC fuel or oil. So it then concerns me a little bit 
when I see this $17 million set aside for natural gas 
technologies, and we have $356 million in batteries and 
electric vehicles--is actually 575 million. So there seems to 
be a real disparity, a gap between natural gas technologies and 
battery technologies, electric vehicles. So the first thing 
that pops into my mind is that is DOE implementing the Sierra 
Club's Beyond Natural Gas campaign in any way?
    Secretary Moniz. No, sir. I think the point is that the 
research funding is for technologies of tomorrow. I think in 
terms of natural gas vehicles, you know, the technology is 
largely here. There is research also in ARPA-E, I believe, in 
terms of getting new materials for better storage tanks so that 
you can put more in because----
    Mr. Terry. So there is DOE funding on the tank side?
    Secretary Moniz. Correct.
    Mr. Terry. And is that part of the 17 million?
    Secretary Moniz. I think that may be in ARPA-E but I will 
get back to you on that.
    Mr. Terry. OK. I would appreciate that.
    Secretary Moniz. I will clarify that for you and for me.
    Mr. Terry. So from the cynical side when we see such a gap 
between the funding, we are assuming that there is a 
legitimate, logical conclusion that there is not much interest 
in natural gas.
    Secretary Moniz. I think the issues are, for example, if 
you take the LNG trucks, the Class A trucks, and there are 
trucks out there now using LNG.
    Mr. Terry. Yes.
    Secretary Moniz. In many ways, the issue is the OEMs to try 
to get the capital cost difference. A Class A truck capital 
cost----
    Mr. Terry. Oh, no, I am well aware of the cost and that is 
one of the barriers is----
    Secretary Moniz. Yes, and then it is the infrastructure.
    Mr. Terry. And that is coming despite our best efforts.
    Secretary Moniz. Yes, the open road use is very difficult, 
but I think the market is going to be station-to-station.
    Mr. Terry. Yes, and I have so many other questions on that, 
but in the last 8 seconds, have you formed a position on 
Keystone pipeline in regard to your position from DOE?
    Secretary Moniz. That is a Department of State decision----
    Mr. Terry. Well, other agencies have input and DOE will be 
one of them.
    Secretary Moniz. We will make input certainly in technical 
analysis but the decision is in Secretary Kerry's hands.
    Mr. Whitfield. The gentleman's time is expired.
    At this time I recognize the gentleman from Texas, Mr. 
Green, for 5 minutes.
    Mr. Green. I think for my colleague from Nebraska I think 
the Secretary has enough on his plate to pick a fight, but I 
appreciate you.
    And congratulations, Mr. Secretary, again. And I know we 
have met before. And in Texas they would say you know where I 
come from, but you know the area I represent, and I appreciate 
and look forward to working with you.
    I would ask you some questions about LNG exports but our 
Natural Gas Caucus is actually holding a briefing now with 
Chris Smith, a bipartisan briefing, so I think that will handle 
a lot of the questions I have.
    Let me talk about something that has come up over the 
years. Carbon capture and storage is consistently discussed in 
context that it is used possibly as carbon control technology 
under EPA rules on utilities and refiners. The problem is it is 
still too expensive commercially to be used, and I ask DOE this 
question every budget hearing so I could continue to monitor 
the progress. Can you please describe current DOE CCS 
activities?
    Secretary Moniz. Yes. Well, we have about a half-dozen now 
major projects going forward, some are power plants, some are 
industrial facilities, for example, a large ethanol plant of 
Archer Daniels Midland plant. And I think the majority of them 
actually also is what is called CCUS--utilization and 
sequestration--specifically using it for enhanced oil recovery.
    So today, I think a story not well known is that today we 
are using about 60 million tons per year of CO<INF>2</INF> to 
produce 300,000 barrels a day of oil from enhanced recovery, 
and a Department of Energy study a few years ago estimated that 
could go up by a factor of 10. So 3 million barrels a day is 
getting pretty serious.
    Mr. Green. Yes.
    Secretary Moniz. And to do that----
    Mr. Green. That is two more than we would ever get from 
Keystone pipeline.
    Secretary Moniz. Yes. And to do that we would need to use 
CO<INF>2</INF> from power plants or industrial facilities. 
There is not enough natural CO<INF>2</INF> for that scale.
    Mr. Green. OK. And is there any idea when CCS may be 
commercially viable? I know these plants wouldn't be there 
where they are now without the assistance of the Department of 
Energy.
    Secretary Moniz. Right. I think this is the case where 
government funding is the only way to get to the demonstration 
phase. The goal is to demonstrate it at the level where the 
regulatory requirements can be settled such that the private 
sector knows what the game is. But, of course, that will only 
come as well when carbon emissions are being limited and/or we 
have enough use of the CO<INF>2</INF> like enhanced oil 
recovery or other applications.
    Mr. Green. OK. OK. I am a strong supporter of smart grid 
technology and I noticed that the Administration is 
recommending a 37.9 percent decrease in smart grid funding. Is 
that because we are moving these activities elsewhere or are 
they truly reducing the activities for smart grid?
    Secretary Moniz. No, our intention is to increase the focus 
on smart grids, so I will clarify, Mr. Green, that budget issue 
for you.
    Mr. Green. OK. In the President's budget for fiscal year 
2014, the budget request for ARPA-E is 379 million, an increase 
of 38 percent above enacted levels. He mentioned one of the 
strategic areas that funding will go toward is providing 
greater reliability and security in delivery of electricity. 
Electric reliability is a priority of mine and I am wondering 
if you could elaborate on some of the projects or what projects 
are going on within the space?
    Secretary Moniz. There is a whole bunch of projects; some 
of them are very much in the technology development area. I 
mentioned earlier power electronics. That is a new focus area 
which is a critical component of that. Another different cut on 
it is of course cyber security. You can't forget cyber security 
very long when you are talking about the grid and the smart 
grid----
    Mr. Green. And reliability. I understand.
    Secretary Moniz. And that is a huge focus. Another area is 
the proposed race to the top, which is for both energy 
efficiency and grids. We are----
    Mr. Green. OK. I only have about 19 seconds. Do you have 
flexibility with current revenue funds for that race to the 
top?
    Secretary Moniz. No, that is a proposal to the Congress in 
the fiscal year 2014 budget.
    Mr. Green. OK. But you don't have the current funds? You 
can't put current funds toward this and this would not happen 
without those additional funds?
    Secretary Moniz. That is my understanding, yes.
    Mr. Green. OK. Thank you, Mr. Chairman.
    Mr. Whitfield. At this time I recognize the gentleman from 
Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman.
    And, Mr. Secretary, thanks very much for being with us 
today. It is good to have you before us.
    And I think you have heard a wide range of questions from 
members on both sides of the aisle. And, if I could, maybe just 
to kind of reiterate a little bit here, just kind of give you a 
background.
    I think that we talk a lot about all-of-the-above energy 
policy, and I know it was in 2008 that Republicans put forward 
our plan for an all-of-the-above energy policy, and that is 
really going through, you know, everything that we have today 
you have been hearing from nuclear to clean coal to oil to 
natural gas to hydro and all of the alternatives. We want to 
make sure that those are being used.
    And at the same time, I look at my district. I represent a 
manufacturing district with 60,000 jobs. I also represent the 
largest ag district in the State of Ohio. And so it comes down 
to we use a lot of energy in my neck of the woods. And so when 
we use energy, we talk about baseload capacity because when 
those factories are running three shifts a day, they have got 
to make sure that they have that energy straight through the 
day. And at the same time, to get that energy, we have to make 
sure that we have that ability.
    On the front page of today's Wall Street Journal we had the 
report showing that we have about a million barrels more of oil 
being produced in this country every day, which is very, very 
important because again we want to get our reliance off of 
foreign countries. And I think the last number I saw we were 
importing about 43 percent of the oil that we are using every 
day into the country.
    So, when you look at what is happening out there and it is 
great that what we are doing in production here in the United 
States, and I think that Dr. Burgess had asked a little bit 
about it, but really what has really helped us get there is on 
the whole the means that we are using to bring this oil and 
natural gas up. And it is a known technology which is fracking.
    And there are reports from several weeks back of OPEC 
countries that some of them are getting into a panic and they 
are saying it is all because of fracking that is going on in 
the United States that is bringing up our ability to bring up 
this oil and to really get this into the United States market. 
Can I just ask you again, what is your stand on fracking?
    Secretary Moniz. Well, I am not sure it is a stand, but 
what my view is that, as we have said, that I would say all of 
the environmental issues that have arisen I believe are 
manageable. I think we know what to do. They may be challenging 
in some cases but we know what to do; the issue is doing it. 
And there, of course, has not been--we have had obviously 
incidents.
    As an example, the biggest problem in terms of the number 
of incidents has been, frankly, just poor well completion, bad 
cement jobs. You know, again, you would know what to do in 
principle but you just have got to have best practices done all 
the time. Another example which is slightly more challenging to 
address but again I think we know what to do is methane 
emissions.
    Now, we are moving more than half I believe now of the 
frack jobs are so-called green completions where the methane is 
captured and is for economic benefit. In fact, if I may just 
add one more, just this morning I was speaking with someone 
from a company where it is interesting. They are capturing the 
methane in the frack job not using 30,000 horsepower diesel 
engines anymore to drive the hydraulic fracturing but using 
gas-fired engines. And that then in turn is greatly improving 
air quality issues by displacing the diesels. So I think there 
are solutions there; we just have to make sure we are using 
them.
    Mr. Latta. OK. In my last 40 seconds here, another issue 
that is a real concern out there is on cyber security. And I 
know I have had several events in my district on cyber 
security, and it is a big issue out there. But one of the 
questions is that, when we are looking at really protecting the 
grid out there, can you justify right now when I am looking at 
your budget numbers here that the cyber security for the 
electric grid would be only about 38 million is what your 
department is asking for? And shouldn't there be more dollars 
out there to make sure that the grid is protected?
    Secretary Moniz. Well, the cyber security activity in the 
budget actually appears in many different places in the 
Department, and I have pulled together a council bringing 
together the various entities. So the Office of Electricity has 
a cyber security budget. The Office of Intelligence; the NNSA, 
the National Nuclear Security Administration, has a big program 
on cyber security. And I am forgetting one. Oh, and the CIO of 
course is heavily involved.
    So what we are trying to do is to make sure we bring all of 
these assets together to look at everything from grid 
reliability and resilience to frankly protecting our own 
national security secrets.
    Mr. Latta. Thank you. Mr. Chairman, my time is expired and 
I yield back.
    Mr. Whitfield. At this time, I recognize Ms. Matsui of 
California for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman.
    And thank you, Secretary Moniz, for joining us today. And I 
congratulate you on your new position.
    I appreciate the Department of Energy's continued 
commitment to clean energy technology, energy efficiency, and 
the reduction of carbon emissions.
    The American manufacturing sector has an essential role 
when it comes to U.S. competitiveness. It accounts for 12 
percent of GDP, 70 percent of private sector R&D investment, 
and 60 percent of exports. And the manufacturing sector added a 
half-a-million jobs in the past 3 years. The President has 
emphasized the importance of investing in American 
manufacturing to build on this momentum.
    My district of Sacramento boasts nearly 14,000 clean 
energy, clean technology jobs and more than 230 clean 
technology firms. I am keenly interested in advancing our clean 
energy manufacturing sector and have introduced legislation 
that would assist these companies in exporting these products 
abroad, thus allowing them to create jobs and better compete in 
the global market.
    Mr. Secretary, the Energy Department's Clean Energy 
Manufacturing Initiative is focused on improving the 
manufacturing of clean energy products and increasing 
manufacturing energy productivity more broadly. Why is this 
initiative important and what benefits are we going to see?
    Secretary Moniz. Well, I think the initiative is important, 
frankly, for the reasons that you have already stated, that 
this is the way of getting the next cutting-edge technologies 
moved into the manufacturing environment in this country so we 
can capture those immediate jobs. But then, we should not 
forget the spillover in the sense of capturing important parts 
of the supply chain, that supply chains like to go together, 
and so you have a multiplier effect.
    The project in Youngstown, Ohio, for example, on the 3-D 
manufacturing--or additive manufacturing sometimes it is 
called--is a good example. This is a technology that is already 
penetrating the manufacturing sphere but it is only just kind 
of a toe in the water. So that is a place where we have got to 
put that into our manufacturing environment quite solidly. The 
next one will be on some semiconductors. That is out there 
right now.
    So again, I think we really need to think about in the end 
we need to capture the high-margin parts of the supply chains 
of clean technologies.
    Ms. Matsui. OK. This market is going to be worth trillions 
of dollars in the next decade. What needs to happen for the 
United States to lead in this market?
    Secretary Moniz. Well, I think much of this will happen in 
the private sector, but I think the Federal Government does 
have a role, as we just described. This is a good example in 
the manufacturing initiative. But I would go back to what may 
be even more important and that is developing our human 
capital. I mean this is absolutely essential and, in fact, one 
of the things that I would like to perhaps at some point--and I 
think about it more--talk with members of this committee and 
others in the Congress is I think at the Department of Energy 
we should maybe think about doing traineeships that focus right 
in on the key parts of energy technologies, energy activities 
where perhaps we are not producing enough young people, and to 
go back to Congressman Rush's point in making sure we are 
drawing upon the entire range of our human capital.
    Ms. Matsui. OK. Well, that is good.
    First of all, I want to talk a little bit about ARPA-E. Can 
you tell us about the work ARPA-E is doing to invest in 
potentially breakthrough technologies and attract private 
capital support to the development of these technologies?
    Secretary Moniz. ARPA-E is, I think, was a wonderful 
initiative. And I really credit Secretary Chu for pushing that 
both before he was Secretary in a report of the National 
Academy and then as Secretary. I think ARPA-E, in many ways, I 
think it is the face of innovation for the Department of 
Energy. It does business in a different way. It is targeting 
specific areas.
    For example, going forward, there will be a much bigger 
focus on advanced transportation options coming forward and 
soliciting ideas that sometimes are a little bit out there, 
pretty risky. I think, you know, we will have to judge 
ultimately 7 years down the road whether these technologies 
scale up to be major marketplace players. But every indicator 
is extremely encouraging, certainly, lots of lots of patents, 
disclosures, startup companies coming out of it.
    I will note we shouldn't forget I think if you go back to 
the very first request for proposals or concept papers, there 
were more than 3,000 concept papers put in for 37 awards. I do 
not think we are tapping our full capacity to innovate in this 
country. We need to do more of it.
    Ms. Matsui. All right. Thank you, Mr. Secretary. Thank you.
    Mr. Whitfield. The gentlelady's time is expired.
    At this time, recognize Mr. McKinley from West Virginia for 
5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Mr. Secretary, earlier in the remarks, Chairman Whitfield 
noted about your predecessor and his aversion to fossil fuels, 
very clear, and he made that throughout the 4 years he was 
there making that clear with that. It manifested itself in the 
budget with increasing money is being spent on renewable energy 
sources, on R&D, but it decreased in fossil energy R&D. So I 
have got a chart that shows that what happened in the time 
preceding his administration and then in the last; you see the 
direction we have gone and in fossil fuel research.
    So I am just concerned with that, not only the direction 
but also because I found that I am trying to reconcile the 
information that your office up here only had provided from 
your predecessor, and that was over the $421 million, as 
indicated there at the end. It says that is a 24.8 percent 
increase. Mr. Secretary, just saying so doesn't mean it, so I 
am trying to understand if your office would get back to me to 
explain why they think that is a 24 percent increase when in 
reality you can see that it is a fairly significant decrease in 
funding for the National Energy Technology Laboratory. I am 
sure that Mr. Doyle, Murphy, and all of those of us that have 
an interest in those facilities that we don't see that money 
cut any further.
    So my point here with this a little bit is that during your 
Senate confirmation there were statements to that effect and 
newspaper articles how you are supporting the CCS research and 
R&D, and I applaud you for that because we need to have that. I 
am a little concerned whether you will be able to carry that 
out if we continue to have a lessening amount of money in R&D 
with NETL.
    So the question that I would ask is do you support or are 
you supporting the President's proposed decrease in funding for 
NETL or will you make an effort to alter or work with us to 
alter it so that we can get that money back up to a more 
reasonable level?
    Secretary Moniz. First of all, I think there is again--I 
think not shown on this graph is the $3 plus billion of 
Recovery Act funding that has already been put out there for 
the CCS projects. So that is----
    Mr. McKinley. This all came from the Congressional Research 
Service.
    Secretary Moniz. But I think that is separate. But I think 
we need to look at the whole picture. The other thing--and I 
just don't know from this picture--NETL also receives $12 \1/2\ 
million a year for research from the Royalty Trust Fund. Now, I 
think the bottom line is, however, frankly, back in 1999 we 
were part of forming NETL from the previous FETC----
    Mr. McKinley. OK.
    Secretary Moniz [continuing]. And I think that NETL is our 
lead laboratory for fossil energy research----
    Mr. McKinley. Thank you.
    Secretary Moniz [continuing]. And I have worked with----
    Mr. McKinley. If I could--and I appreciate you--we are 
going to have more of a discussion, but there were some other 
remarks earlier, and I want to maybe parse the words a little 
bit. You said that it is indisputable that there is global 
temperature change. I don't know too many of us who disagree 
that there has been some global temperature change, but my 
question, do you agree with Congressman Waxman that it is 
primarily manmade? Or is it natural and cyclical?
    Secretary Moniz. I believe in my view there is no question 
that a major component is anthropogenic.
    Mr. McKinley. Interesting.
    Secretary Moniz. And that comes from----
    Mr. McKinley. Is that from a consensus?
    Secretary Moniz. It is practically--I would say 98 percent 
of scientists involved in this area----
    Mr. McKinley. You are aware of the petition process has 
32,000 scientists and physicists who have disagreed that it is 
manmade?
    Secretary Moniz. But sir----
    Mr. McKinley. They say it is contributing. I think it would 
be irresponsible to say we don't contribute, but is it 
primarily----
    Secretary Moniz. If I may say, and I would be happy to come 
and have a long discussion, but a few facts that, first of all, 
the rise in CO<INF>2</INF> emissions in the last half-century 
is clearly tracked to our global increased energy use. 
Secondly, I know how to count. I can count how many 
CO<INF>2</INF> molecules have gone out from fossil fuel 
combustion, and I know how many additional CO<INF>2</INF> 
molecules are in the atmosphere.
    Mr. McKinley. Let me just close with saying in terms of 
consensus, I think consensus has a place in politics but 
consensus doesn't have a place in science.
    Secretary Moniz. Again, sir, I just want to clarify. My----
    Mr. McKinley. I yield back my time.
    Secretary Moniz [continuing]. Judgment is based on numbers 
on data and not on the consensus. And I would be really 
delighted if we could have a discussion.
    Mr. McKinley. If we could have that, I would like to do it. 
Thank you very much.
    Secretary Moniz. Thank you.
    Mr. Kinzinger [presiding]. The gentleman's time has 
expired. The chair recognizes the member from Virgin Islands, 
Ms. Christensen, for 5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman.
    And welcome, Secretary Moniz, and thank you for your 
testimony and we look forward to working with you to implement 
your and the President's agenda for the Department and the 
country.
    Some of my questions have been answered. I had some 
questions around weatherization because it is such an important 
program. It has helped low-income families for over 30 years 
now. And in 2012 the funding was at a historic low but the 
President's request for 2014 really aims to ensure that the 
program can continue providing these important services. And 
that would be especially important for every place in the 
United States but in my district where we face energy costs of 
over five times the national average.
    You talked a bit about including job training. Is that 
included in the President's budgetary increase or is that 
something that you are looking forward to doing? Because I 
think that is very important as well as, you know----
    Secretary Moniz. This traineeship idea is one that I would 
like to start to work to develop.
    Mrs. Christensen. OK. And in determining the funding that 
goes to the States and the territories--I represent the Virgin 
Islands, so I am a territory--you generally have a formula, but 
is the funding level ever influenced by need or is it just a 
straight formula? And you may not know that at this point.
    Secretary Moniz. I believe that at the moment we are locked 
into kind of a formula, but as you said, also in the 
weatherization case, what was----
    Mrs. Christensen. It is the weatherization I am talking 
about.
    Secretary Moniz. Yes, in weatherization it is absolutely 
critical if a Continuing Resolution would have that funded at 
70 million. It got so low because of the Recovery Act funding 
but it has to now come back up. And the request is for 184 in 
fiscal year 2014. At 70 million we could not sustain the 
program nationally.
    Mrs. Christensen. OK. And I am asking because we have a 
letter into your office requesting an increase even just for a 
couple of years because of our high energy costs.
    And then the other question I had has to do with solar 
programs, and as you have said already, DOE is conducting a 
range of research development and demonstration and deployment 
activities for renewable sources, and could you tell us about 
the SunShot Initiative? Did you speak about that already?
    Secretary Moniz. Well, no, I have not. So the SunShot 
Initiative we feel very good about in terms of where it is 
going. It is about driving down the cost of solar, and it is 
happening. The solar costs have dropped incredibly. Solar 
module cost is now somewhere around $1 per watt, and it wasn't 
long ago that that was $2.50. So we are getting into a very 
interesting area.
    Mrs. Christensen. You have a very ambitious goal of 
dropping to 6 cents per kilowatt by the end of the decade. You 
think you are on track for that?
    Secretary Moniz. I think we are on the technology. Then the 
question is to get that, there will be a lot of requirements as 
well in terms of local regulations, how you install systems 
because installation costs are now getting to be larger than 
the solar technology cost itself.
    And I might say, you know, in Germany, for example, their 
installation costs are about 40 percent of our costs through 
some uniform standards.
    Mrs. Christensen. I have been interested in OTEC for quite 
a while. Is the Department investing in research of that 
particular technology, the ocean thermal----
    Secretary Moniz. To be honest, I am not sure where the 
Department stands right now on that program.
    Mrs. Christensen. I have not noticed or seen anywhere where 
there is a lot of activity but, you know, for a place like 
ours, small islands surrounded by ocean----
    Secretary Moniz. Yes.
    Mrs. Christensen [continuing]. Some deep water that can 
accommodate it, it would just seem like a renewable energy that 
we ought to pursue. And, you know, I hope that in your tenure 
you will take a look at it.
    Secretary Moniz. OK. I will.
    Mrs. Christensen. Thank you. Mr. Chairman, I yield back.
    Mr. Kinzinger. The gentlelady yields back.
    The chair now recognizes himself for 5 minutes.
    Mr. Secretary, thank you for being here. The Department of 
Energy is fortunate to have somebody with your technical and 
scientific expertise. Personally, I am excited to see the 
direction you take regarding nuclear policy considering your 
background. As we are all aware, your time is short in office 
but the course that you take now has the potential to steer the 
Department for years and decades to come. I hope you choose 
nuclear policy as one of your priorities.
    I am concerned with the current direction of our nuclear 
energy policy as nuclear is a reliable and clean source of 
massive amounts of energy both domestically and through the 
world. In fact, in Illinois 50 percent of our energy is from 
nuclear. With our infrastructure and experience, the U.S. 
should be the leader in the realm of nuclear know-how and 
operation, but our current nuclear energy strategy is 
unstructured and without clear goals. This lack of direction 
leaves our scientists and labs vulnerable when appropriators 
are looking for areas to cut.
    With the closure of a number of nuclear plants in just the 
past few months alone, I am afraid the U.S. is going to see a 
vacuum of nuclear energy experts in the very near future, and 
as those individuals and their knowledge are snatched up by 
foreign competitors, there is no getting them back.
    An effective nuclear energy policy should look to use the 
best resources available to us in order to lead the world in 
this area. In your written testimony, you mentioned that our 
national labs have unique capabilities and expertise to provide 
technical assistance. I was happy to read this, as I also 
believe that our national labs such as Argonne National Lab in 
my home State of Illinois can play a key role in devising an 
enhanced nuclear energy security strategy. Collaborative 
partnerships among our national laboratories to develop such a 
strategy are going to be key to U.S. nuclear energy leadership 
in the future, and I hope that you will look towards developing 
the unique capabilities of those labs as you look to improve 
innovation and effectiveness of the Department of Energy's 
energy programs.
    Just a few questions: A number of DOE national labs, Idaho, 
Oak Ridge, Savannah River, Argonne--have begun talks with one 
another in order to gain full advantage of their collective 
expertise in nuclear energy. Do you have any plans or what are 
your plans to help with this collaborative process moving 
forward in order to get the most of what each of them has to 
offer?
    Secretary Moniz. Thank you. First, more generally than 
nuclear energy specifically, I have met already with all the 
lab directors. We met down in Oak Ridge actually in my first 
week in office basically. And so I am working with them to 
engage the laboratory leadership much more what I would call in 
a strategic partnership for the Department as to where we are 
going. The phrase I would use is if you want people there on 
the landing, you should have them there on the takeoff. And so 
we are working to try to talk about what are the strategic 
technology directions that we are going.
    Among those is clearly nuclear, and you have named to the 
labs that are leading it. Actually, others; Los Alamos also 
contributes, but clearly, Idaho and Argonne historically and 
Oak Ridge were probably the three largest.
    Mr. McKinley. And what are your goals for the growth of 
nuclear energy overall and how do you believe the budget put 
forward by your agency can successfully accomplish all of those 
goals?
    Secretary Moniz. Well, I think in my view the way I have 
always looked at it is our job is to make sure the marketplace 
in the end has the choices that it needs. Among those choices 
should be nuclear power. I think now there are several issues. 
I mean one is, as you know----
    Mr. McKinley. I have got a couple more so I will just cut 
you off if that is OK.
    Secretary Moniz. Yes, sure. Sure, sure.
    Mr. McKinley. We have done high-level comparisons with this 
Administration's budget proposal for the Office of Nuclear 
Energy. What we found is a decline since 2010 of actually 
almost 28 percent. What is a little more striking is that 
during that time DOE moved some additional line items into the 
nuclear energy budget that seem to mask even a sharper decline. 
Given the environmental benefits of nuclear energy and its 
contribution to energy security do you think such a decline is 
appropriate or could it cause any problems? And will you commit 
to examine this apparent decline knowing that you are new in 
this position and respond to this committee with a full 
explanation of it?
    Secretary Moniz. I would be happy to, and I have spoken 
with Pete Lyons. I am committed to maintaining a healthy 
nuclear energy program. SMRs are an important direction, for 
example. Also, we should note there is the commitment at least 
made on the very, very large loan guarantee to help stimulate 
the construction of reactors in Georgia.
    Mr. McKinley. Wonderful. Thank you and I yield back.
    And the chair recognizes Mr. Doyle for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back for your inaugural visit in a 
different capacity, but we are happy you are here and we look 
forward to working with you. I just want to get some clarity to 
some of the remarks that my friend Mr. McKinley made on CCS.
    The President's fiscal year 2014 budget request for 
research related to CCS is 376.6 million, which is a decrease 
of 23 percent below the fiscal year 2012 enacted levels. Now, I 
heard you make mention of stimulus money, some $3 billion, and 
I am curious. That is back in, what, 2009? How much of that $3 
billion has yet to be spent or is currently being--you know, is 
that $3 billion gone?
    Secretary Moniz. No, it is not. I can't give you the exact 
number. I can get it later on. But in some cases much of the 
funding has been expended. As an example, the industrial 
project which I believe is in Illinois is well along. On the 
other hand, another project in Illinois actually, I think the 
FutureGen, is still in the second phase prior to the major 
construction, and they are, to be honest--and it is well known 
that we need to pick up the pace in order to have those funds 
expended prior to the end date for recovery funds.
    Mr. Doyle. Yes, I would be curious to see how much still 
exists in the 3 billion.
    Secretary Moniz. OK.
    Mr. Doyle. The other thing I am just curious about when you 
look at the subprograms within CCS, in the carbon capture part 
of this subprogram there is an increase of 62 percent in that 
budget from fiscal year 2013, but in the storage subprogram, 
that has been decreased, almost been cut in half. I am just 
curious why the increase in the money is going into capture and 
then a decrease in funding on the storage end? What is all of 
that?
    Secretary Moniz. I think the reason is that--I think I like 
to just think about it as these two fundamental problems. One 
is we need to demonstrate the storage with substantial 
injections over an extended period of time. That is what those 
recovery-funded projects are going to do using conventional 
capture technology. But for power plants in the long-term, the 
big cost driver is the capture technology. So the research is 
looking at the cost reduction of new capture technologies while 
the big demonstration projects will address the storage side.
    Mr. Doyle. Thank you very much.
    Mr. Secretary, over the past 10 years, my colleagues and I 
have been championing efforts to support the development and 
commercialization of fuel cell technologies to promote our U.S. 
energy independence. And in particular, I am deeply committed 
to promoting the success of the Solid State Energy Conversion 
Alliance, SECA, under your fossil energy section.
    SECA is a successful partnership, as you know, between the 
government, academia, industry, and the national labs in 
developing solid oxide fuel cells that are capable of cleanly 
and efficiently utilizing our domestic energy resources, most 
notably natural gas, in the coming years. In fact, SECA has met 
or exceeded every benchmark that has been set for it by 
Congress and the DOE.
    Now, you have spoken of the importance of natural gas as a 
bridge to a cleaner energy future. Solid oxide fuel cells such 
as those under development in SECA are the cleanest, most 
efficient way to use natural gas, as well as a range of 
domestic energy sources. So in light of your support for 
natural gas, what are your plans for ensuring the continued 
success of the SECA program to ensure we develop technologies 
that make the most efficient use of that fuel?
    Secretary Moniz. To be honest, I will have to go and look 
at that in detail, but I can make a few comments because I have 
not been briefed on this to be honest in the last 3 weeks. But 
one, I do know that certain costs have come down, perhaps 
partly through SECA, I mean, 35 percent kind of cost reductions 
in the last few years. And secondly, I think also solid oxide 
fuel cells could be very interesting for combining power 
applications because of their higher temperatures. So I will 
look into that and get back to you on the specifics.
    Mr. Doyle. Thank you, Mr. Secretary. I wish you well and I 
look forward to working with you. I yield back.
    Secretary Moniz. I do as well.
    Mr. Whitfield. Sorry. I was thinking about something else 
there for a moment. Your comments are so insightful that it 
makes me think about other things.
    Secretary Moniz. Thank you.
    Mr. Whitfield. Mr. Olson of Texas, you are recognized for 5 
minutes.
    Mr. Olson. I thank the chair.
    And welcome to Secretary Moniz. Congratulations on your 
nomination by the President to be the 13th Secretary of Energy 
and by being confirmed by the Senate with an impressive 97-to-
nothing vote.
    Mr. Secretary, my home State of Texas is the fastest-
growing State in the Union. Texans want to sustain that growth 
and they know that one of our challenges is reliable power 
being available. Federal and state regulators agree that we 
could see a crisis on our grid if we have another hot summer 
like the August 2011.
    One of the most significant areas of fossil fuel research 
in the DOE's budget is carbon capture and sequestration. And 
since I gathered this information on sequestration at MIT.edu, 
I assume you are aware of a DOE-supported--I guess you would 
call it--CCUS project at the W.A. Parish power plant outside of 
Needville, Texas, in my district. The goal of this project is 
to decrease CO<INF>2</INF> emissions by 90 percent with 
appropriate reductions in SO<INF>x</INF>, NO<INF>x</INF>, and 
mercury emissions. The captured CO<INF>2</INF> will be used for 
enhanced oil recovery operations in nearby old oil fields.
    DOE issued its final EIS on March 15 of this year with the 
finding of negligible to minor environmental impacts. The W.A. 
Parish plant is leading the CCUS research but they will tell 
you, like you said here, CCUS is not ready for prime time.
    Well, let me step back. CCUS is not realistic for many 
power plants. We are unique because we are so close to a former 
oil field. Unfortunately, EPA is not waiting for DOE to do the 
research and the proposed regulations that essentially mandate 
the use of unproven CCUS technologies on any new coal-fired 
power plant. My State needs power but the EPA is effectively 
banning a major source of new generation by requiring unproven 
technology in our power plants. In a sense, W.A. Parish has 
committed to invest $163 million in this project. Will you 
commit to work with them to see that their unique circumstances 
for CCUS are economically viable from a market perspective?
    Secretary Moniz. I should be happy to be briefed by them 
and to discuss with them, yes.
    Mr. Olson. And help them get EPA out of the way?
    Secretary Moniz. Well, I think that we will have to see 
what the situation is.
    Mr. Olson. Yes, sir. I appreciate your commitment.
    And as you know, another tool you have to help my home 
State avoid blackouts is Section 202(c) of the Federal Power 
Act. Under Section 202(c) DOE has the authority to order a 
power plant to run during an emergency even if that would cause 
a brief violation of environmental laws.
    Unfortunately, EPA environmental groups have usurped DOE's 
202(c) of authority by bringing lawsuits which have resulted 
with power plant owners paying fines for complying with DOE 
regulations and orders. Two weeks ago, the House passed my 
bill, H.R. 271 to prevent this regulatory trap. The last 
Congress it was favorably discussed by the FERC commissioners 
and your predecessor Secretary Chu.
    The Senate has yet to take up the bill, so I am going to go 
Texan and shoot straight. Do you support my bill, H.R. 271?
    Secretary Moniz. Sir, I will have to study it first but it 
sounds like an issue I should get up to speed on. Thank you.
    Mr. Olson. Thank you. I appreciate that.
    And finally, your department has some critical decisions 
ahead of it on LNG exports. My support for LNG exports comes 
from a strong belief in free markets and my State's booming 
energy production. But most importantly, LNG exports can 
sustain our national security, strengthen it, by developing 
relationships with countries that are important to the United 
States of America.
    One of those countries is India. There is a vibrant Indo-
American community in my district. Our relationship with India 
is key and our Indian allies can either buy gas from us or by 
gas from nations like Iran.
    My first question--and I am running out of time here--is do 
you support energy exports? Yes or no?
    Secretary Moniz. Well, again, I will be evaluating the 
export applications on a case-by-case basis expeditiously. I 
might also add I will be in India in two weeks.
    Mr. Olson. Great. Great. Bring this up. They will bring it 
up with you; I can guarantee you. I am out of my time. Thank 
you.
    Mr. Whitfield. The gentleman's time is expired. At this 
time, I recognize the gentleman from Virginia, Mr. Griffith, 
for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate that. 
Following up on LNG, multiple studies of LNG exports have 
pointed out that the U.S. projects are in a race to meet 
worldwide demand for LNG with international projects all around 
the world. Do you agree the delays in the DOE permitting 
process are putting U.S. export projects at a disadvantage 
compared to competing projects in the Middle East, Russia, and 
elsewhere?
    Secretary Moniz. Well, I am not sure I characterized 
delays. I mean I am starting my own process now----
    Mr. Griffith. Yes, sir.
    Secretary Moniz [continuing]. Expeditiously, but I do want 
to point out the pitfalls of litigation, et cetera, are there 
so we have to do it right. So I want to be very, very 
systematic, transparent, and march through these as 
expeditiously as I can.
    Mr. Griffith. And I would also be remiss being a 
representative from Virginia--even though I am a long way from 
the shore--that Virginia believes that we have a lot of natural 
gas offshore, and we would love to be able to get to that and 
any oil that might be out there as well. And that has been the 
policy of at least the House of Delegates in Virginia since 
2004 when I was there and has been the policy of the State as a 
whole, I think, for about the last 45 years. But if you could 
expedite that, that would be great. We are ready to get 
started.
    Secretary Moniz. It is not in my lane.
    Mr. Griffith. I understand. I will tell you that it is 
interesting when you study all of these issues and you look at 
the environment and you look at ways and problems and things 
that we have to move forward on. And it is one of those things 
that I have always loved is that in the 1890s the major cities 
of the world, particularly northeastern United States and some 
others, were very concerned about the environmental problem 
that they were having with dealing with the dead horses. And 
through technology, we were able to move forward without having 
that problem. They worried about having to deal with manure as 
high as 30-story buildings and the environmental impact of not 
being able to get the decaying horse carcasses out of the 
streets in a timely fashion when the population rose and they 
were looking at projections out to 1930 and 1950.
    That being said, you were, I believe, the cochairman of a 
group at MIT that did a report in 2007 on the future of coal. 
And while there are a number of difficulties that people look 
at with coal, there is also some really interesting 
technological advances that are moving forward. And so I would 
ask why, when we look at the budget, do we not see more money 
being spent on looking at some of these technological advances 
that have come forward?
    And I would point to a number of things. One of the things 
that was mentioned there is chemical looping and that was 
mentioned in that report. And now, it appears that an Ohio 
State University professor, whose first name I am not familiar 
with how to pronounce but his last name is easy, I think, Fan, 
has come up with a way to use coal. Obviously, it is in the 
preliminary stages but to burn or to get the energy out of coal 
with virtually no pollutants. A little coal ash leftover is 
about it. And he is now taking that or they are taking that to 
Alabama and DOE has some money in that.
    But I am wondering why, when we look at reports--and I am 
looking at one of the charts that we were provided, budget for 
Applied Energy, I am wondering why we don't have more money 
going into projects like that to see if we can't make this 
technologically feasible since we are in fact in the United 
States, the kings of coal throughout the world?
    Secretary Moniz. Well, again, I will repeat but not go into 
detail there is of course the huge amount of money sitting 
there in advancing the CCS projects, some of which are also 
advancing the technologies along the lines you are saying. For 
example, one of the projects is a so-called oxy combustion 
project as opposed to a conventional boiler, et cetera. The 
chemical looping, very interesting.
    As was already said, we do have an increased focus on 
carbon capture technologies and also advanced materials, very 
important for----
    Mr. Griffith. I think that means that we can count on you 
to embrace, develop, and ensure the success of these types of 
programs for transformational coal technologies. All right. And 
I just have a few seconds left but I would ask that you 
continue to work in those directions and do fund I believe it 
is the National Energy Technology Laboratory that has been 
working with the Ohio State project even though they have got 
$5 million. It was 15 years in the development.
    Secretary Moniz. Right.
    Mr. Griffith. But I do have to say when I look at this 
chart and I see, you know, biomass and bio refineries ahead of 
coal, I am disturbed by that because I really believe that with 
our great resource out there of coal that finding a way to make 
everybody happy and burning it and giving jobs back to the 9th 
District that had been stripped away over the last few years is 
extremely important, and I would encourage you to continue to 
pursue that and count on me in any way that I can be helpful in 
moving those projects forward. Thank you.
    Secretary Moniz. Thank you.
    Mr. Griffith. And I yield back, Mr. Chairman.
    Mr. Whitfield. The gentleman yields back.
    At this time, I recognize the gentleman from Colorado, Mr. 
Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. And I don't know. You may 
need a little more time to answer this question; I am not sure 
yet. But one of the issues that I hope that you would be able 
to address is the building of transmission lines to help get 
power to and from rural areas. My district in Colorado is the 
size of the State of South Carolina. In fact, it is a little 
bit bigger than the State of South Carolina. And there have 
been significant issues with the building of transmission lines 
on federal lands. Are you aware, and if so, what is your view 
of the Interagency Rapid Response Team which is housed in your 
agency?
    Secretary Moniz. You are right; I will have to get back to 
you on that.
    Mr. Gardner. All right. So I would like to ask a series of 
questions----
    Secretary Moniz. Yes.
    Mr. Gardner [continuing]. If you don't mind on the 
Interagency Rapid Response Team and just perhaps get some 
examples of successes they have had, some measurements that you 
are using to define or determine success. And perhaps if you 
could get back with us on specific results of the RRT's efforts 
to this point so far and a discussion of the process the RRT 
uses, recommendations for improving its effectiveness, and 
plans for how to implement those recommendations going forward. 
It is very important, I think, to the development of renewable 
energy in Colorado and opportunities that we have on federal 
lands and resources.
    In your testimony you cited that the President's budget 
increased investment for Department of Energy efficiency 
measures. You also state that you are instituting energy 
efficiency measures that reduce energy use in federal agencies 
and the industrial and building sectors. I was interested in 
your Department's promotion of energy savings performance 
contracts. As you know, the President wrote a memorandum to 
federal departments and agencies on improving energy efficiency 
in our federal building inventory December 2011. It is a 
program where private companies take the risk on the upgrading 
of federal buildings at no cost to the taxpayer. Can you 
provide an update of the use of ESPCs by the Department of 
Energy? And you can get back to us if you would like.
    Secretary Moniz. Sure. And I can't note also now, well, 
first of all, that I am a big fan of ESPCs. Number two, right 
now, the commitments are approaching $600 million against the 
$2 billion target.
    Mr. Gardner. The overall target, right?
    Secretary Moniz. The overall target. And I have to admit 
the end of this year is going to be pretty tight but I think 
that the pipeline that is in there will hit the $2 billion 
target in maybe a year or two later.
    Mr. Gardner. And I just would like to note that one of my 
colleagues on this committee, Peter Welch from Vermont, and I 
are going to be working on legislation that will encourage even 
more utilization of ESPCs and hope that we could work together 
on the use of ESPCs.
    Secretary Moniz. In general in the whole efficiency agenda 
is one I would love to work with you on.
    Mr. Gardner. Very good. And are you consulting the 
President on the Keystone XL pipeline?
    Secretary Moniz. No, I am not.
    Mr. Gardner. Do you think you should be consulting with the 
President as Department of Energy Secretary?
    Secretary Moniz. Well, I think the Department is prepared, 
of course, to provide technical analysis. Of course, the EPA is 
involved in terms of the environmental statements. And then 
Secretary Kerry, I think, is the lead----
    Mr. Gardner. But so far you haven't consulted with the 
White House or the Department of State on the Keystone 
pipeline?
    Secretary Moniz. To date I have personally not. Of course, 
Secretary Chu may have.
    Mr. Gardner. And what is your opinion of the Keystone XL 
pipeline?
    Secretary Moniz. I think that it is a decision for 
Secretary Kerry.
    Mr. Gardner. Well, what would your advice be to Secretary 
Kerry?
    Secretary Moniz. To evaluate all the factors in the public 
interest.
    Mr. Gardner. Very good. So no answers on that. That is 
quite all right for the time being.
    The Americans against Fracking opposed your nomination.
    Secretary Moniz. Say that again?
    Mr. Gardner. Americans against Fracking opposed your 
nomination because you had stated earlier today your position 
on fracking. Would you agree with both previous Administrator 
Lisa Jackson, as well as Governor Hickenlooper in Colorado, who 
have said that they are not aware of any proven case where the 
fracking itself has affected water?
    Secretary Moniz. That is true to my knowledge as well.
    Mr. Gardner. And what did you say or your response to 
Americans against Fracking in your support of hydraulic 
fracturing? What did you respond to them?
    Secretary Moniz. Well, actually, I did not respond. I have 
a public record in terms of what I think. I have repeated that 
here today and that remains my position. Manageable, 
challenging, must be managed.
    Mr. Gardner. You know, city did a report talking about 
energy independence, North American energy independence is a 
real possibility of the American energy renaissance in this 
Nation. Can we get to energy independence and continue the 
energy renaissance in this country without hydraulic 
fracturing?
    Secretary Moniz. Well, that is a difficult question. I mean 
I think certainly given all of our assets, particularly in 
North America, there really is a chance that we could be that 
independent. It doesn't mean we wouldn't be exporting and 
importing but----
    Mr. Gardner. Right, but can we do it without----
    Secretary Moniz [continuing]. And have as many BTUs as we 
do----
    Mr. Gardner. Can we do it without hydraulic fracturing?
    Secretary Moniz. Well, today, obviously, it is a huge 
contributor for both oil and gas. So----
    Mr. Gardner. So the answer is no, we could not do it 
without----
    Secretary Moniz. No, I have a harder time seeing it clearly 
without that. But, you know, we are going to be moving, I 
think, increasingly to alternative technologies as well, so I 
can't rule it out. But clearly, if you look at----
    Mr. Gardner. But hydraulic fracturing is a critical part of 
our energy----
    Secretary Moniz. Today, it is absolutely critical. Sure, we 
would not have the increased oil and gas production without it.
    Mr. Whitfield. The gentleman time is expired. At this time 
I will recognize the gentleman from Ohio, Mr. Johnson, for 5 
minutes.
    Mr. Johnson. Well, thank you, Mr. Chairman, for holding 
this important committee and for allowing me to participate.
    And, Mr. Secretary, congratulations to you for your 
appointment and confirmation to what I believe is one of the 
most important Cabinet positions in the Nation right now.
    As you may know, my colleague from Ohio, Tim Ryan, and I 
have formed a bipartisan LNG Export Working Group along with 
six Republicans and Democrats. It is a bipartisan group. And a 
number of them are on this committee and have already 
participated in this hearing today. I am going to stay on a 
subject that is familiar, LNG exports for a minute or two.
    You know, we did not expect you to be sworn into your new 
job and start approving pending applications to export to non-
Free Trade Agreement countries overnight. Many in Congress, 
however, believe that the time for review has passed. You have 
commented just a few minutes ago in your questions that, I 
think if I understood you right, you said you couldn't comment 
on the delays or what the delays were. But I can tell you that 
almost all of the applications have been pending for over 100 
days, and at least one of them has been pending for almost 800 
days. The studies have been done.
    So my question to you--and I appreciate and I am encouraged 
that you have said you are going to be expeditiously evaluating 
and planning to take action through the remainder of this year, 
but there is quite a bit of time left in this year and there 
are a lot of applications out there. So when will you and the 
Department start making decisions on what have been languishing 
for the better part of 2 years?
    Secretary Moniz. Well, as I have said, sir, you know, I 
have had to get my head around it, as you have acknowledged. We 
are getting, I think, very close to the time. We are going to 
start evaluating those dockets.
    Mr. Johnson. Well, I would encourage you--and I am sure you 
have heard this before, let the market drive this. Our private 
sector oil and gas folks, they will make the right decisions 
given that all of the evaluations have been done. Let's open 
this up and let the market drive it and create the jobs that 
are going to come with it.
    Do you foresee in the evaluation process the Department of 
Energy working through the application list in a different 
order than in which they were submitted or filed to take into 
account which projects may be more viable than others to build? 
And if so, what factors might the Department look at in 
determining that?
    Secretary Moniz. Well, no, sir. I think we are going to 
stay with the order. I think to start injecting new subjective 
judgments I think would just kind of confuse the situation and 
open up some more criticism and possible intervention so----
    Mr. Johnson. Wow. Well, I like that answer. You are one of 
the first in this Administration to avoid picking winners and 
losers here in Washington. I think that is commendable. I would 
again urge you to consider let's just get these approved and 
let's let the market drive it.
    Let me move to another subject now. I would like to switch 
gears a little bit, a subject that one of our colleagues 
mentioned earlier, and talk about an issue that is important 
not only to my constituents but to our country, and that is the 
issue of making sure that America has an indigenous and solely 
U.S.-owned enriched uranium producer.
    Since the Department and USEC were not able to come to an 
agreement to keep the Paducah plant operating, once the 
Department's current inventory is depleted, the government is 
left without a continued source of enriched uranium for 
national security purposes. Given this serious situation, I 
commend the Department for conducting a 2-year, $350 million 
cost-shared RD&D program to demonstrate reliability of the U.S. 
centrifuge project at the Piketon facility. This program has 
been very successful to date, constructing over 120 centrifuge 
machines and associated plant systems on budget and on schedule 
to demonstrate reliability of the technology.
    At the same time, the Federal Government is investing about 
230 million through the end of the current fiscal year in this 
RD&D program and has taken title to the centrifuge machines and 
the support facilities. The balance of the 48 million of 
federal cost-share funding is needed to complete this critical 
RD&D effort by year's end. And while we in Congress will 
continue to have the funding included in any appropriations 
bills, given the critical role that this program has for 
national security and the fact that the government is heavily 
invested in its outcome, can you tell me how you are going to 
or what your plans are to find the balance of the 48 million 
needed to complete by December 31 if the Senate and the House 
are not able to come to resolution on an Energy and Water 
Appropriations bill?
    Secretary Moniz. I think we are going to have to have the 
discussion with the Congress in the funding. I very much want 
to see that demonstration completed because I think that is a 
critical decision point for the path forward. And it would be, 
if successful, as you say, our only indigenous American 
technology.
    Mr. Johnson. Certainly. Well, you know the history that we 
have had with working with the Senate to try and get financial 
bills--whether they be budgets or appropriations bills--passed. 
So have you and the Department begun thinking about how we will 
come up with that 48 million in funding?
    Secretary Moniz. I don't have a plan for that yet but we 
will have to address it as we see how progress comes.
    Mr. Johnson. OK. Well, thank you very much, Mr. Secretary.
    Mr. Whitfield. The gentleman's time is expired. And that, I 
think, completes the questions.
    I have one additional question, Secretary Moniz, and I 
don't know if Bobby does or not, but we have heard a lot about 
carbon capture and sequestration research and funding for that 
research at the Department of Energy, and I was glad to hear 
you earlier--or someone--not say sequestration but say 
utilization because we hope that there will be technologies out 
there to use CO<INF>2</INF> instead of storing it, maybe use it 
commercially in some way.
    And so as Secretary of Energy, do you feel like you have 
the authority, the ability to direct money into research for 
carbon capture and utilization rather than sequestration?
    Secretary Moniz. Well, yes. I think we certainly have the 
authorities to do that, and I think ARPA-E has some ideas in 
terms of novel utilization techniques. But the other one is a 
discussion, I think, with industry, et cetera. It is not an R&D 
issue as such, but if the utilization through enhanced oil 
recovery is to scale-up, we have a big infrastructure issue to 
look at----
    Mr. Whitfield. Right.
    Secretary Moniz [continuing]. Probably as a public-private 
partnership.
    Mr. Whitfield. But even in addition to enhanced oil 
recovery, other types of utilization.
    Secretary Moniz. Yes, other things, building materials, et 
cetera, yes.
    Mr. Whitfield. Right, right. And then my final comment 
would be I would urge you once again to use all of the speed 
that you all have available to you on your request for proposal 
for the economic development at the Paducah plant.
    Secretary Moniz. I should have mentioned earlier--I 
forgot--that, as you know, we have several proposals in and we 
will be evaluating those, sir.
    Mr. Whitfield. Thank you. Thank you. Mr. Rush?
    Mr. Rush. Mr. Secretary, I was a little disturbed earlier 
when the fine gentleman from Louisiana, Mr. Scalise, would not 
allow you to complete your answers. So there were a lot of 
questions. It was quite interesting. I am sure you have some 
additional comments that you wanted to make regarding Mr. 
Scalise's questions that he was asking you.
    Secretary Moniz. Well, I think we made our points in the 
discussion, so thank you, Congressman.
    Mr. Rush. Yes. You know, the drilling on federal lands as 
opposed to nonfederal lands, I think that that was a pretty 
interesting line of questioning, and I wanted to hear what your 
real answers were to that.
    Secretary Moniz. Well, I mean I think my answer was what I 
am saying, that I think that the industry is, you know, it is 
going out there pretty hard in terms of this increased 
production. There is a lot of infrastructure to do, et cetera. 
Frankly, there are limits to the number of rigs, and there are 
a number of leases on federal lands that are not being used. So 
I think the issue is to keep your eye on the ball, that oil 
production, gas production is going up. It is going up at a 
pretty rapid pace in fact. And so I think that is----
    Mr. Rush. Thank you very much. I really appreciate it. 
Thank you.
    Mr. Whitfield. Secretary Moniz, thank you for being with us 
today. We appreciate your patience and you answered all of our 
questions. We look forward to working with you as we move 
forward, and thank you once again.
    Secretary Moniz. Thank you.
    Mr. Whitfield. And this hearing is adjourned.
    Secretary Moniz. And all the members, thank you.
    Mr. Whitfield. Thank you.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

               Prepared statement of Hon. Eliot L. Engel

    Thank you Mr. Chairman.
    Secretary Moniz, thank you for joining us today. I look 
forward to working with you on energy policy over the next few 
years.
    Overall, I am satisfied with the President's FY14 budget 
for the Department of Energy. I am particularly interested in 
the budgeting for alternative transportation fuels. I commend 
you and the President for proposing a $2 billion set aside for 
an Energy Security Trust, as well as other investments in 
alternative fuels and energy efficiency.
    I will soon be re-introducing the Open Fuels Standard Act 
with my colleague from Florida, Ms. Ros-Lehtinen. I have done 
so for the past several years. I believe that this legislation 
will help drive domestic production of all types of alternative 
fuels, while greatly decreasing our reliance on foreign oil 
from hostile regimes. This has also been the goal of my Oil and 
National Security Caucus, which has focused on ways to reduce 
our dependence on foreign oil, while making the U.S. energy 
independent.
                              ----------                              



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
